No.

In the Supreme Court of the United States
FEDERAL ELECTION COMMISSION, APPELLANT
v.
TED CRUZ FOR SENATE AND
SENATOR RAFAEL EDWARD “TED” CRUZ
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

JURISDICTIONAL STATEMENT

LISA J. STEVENSON
Acting General Counsel
KEVIN DEELEY
Associate General Counsel
HARRY J. SUMMERS
Assistant General Counsel
SETH NESIN
Attorney
Federal Election Commission
Washington, D.C. 20463

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
MALCOLM L. STEWART
Deputy Solicitor General
VIVEK SURI
Assistant to the Solicitor
General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

When a candidate for federal office lends money to
his own election campaign, federal law imposes a
$250,000 limit on the amount of post-election contributions that the campaign may use to repay the debt owed
to the candidate. 52 U.S.C. 30116( j). The questions presented are as follows:
1. Whether appellees have standing to challenge the
statutory loan-repayment limit.
2. Whether the loan-repayment limit violates the
Free Speech Clause of the First Amendment.

(I)

PARTIES TO THE PROCEEDING

The Federal Election Commission (FEC) is the appellant in this Court and was a defendant in the district
court. Ted Cruz for Senate and Senator Rafael Edward
“Ted” Cruz are appellees in this Court and were plaintiffs in the district court.
Ellen L. Weintraub, Matthew S. Petersen, Caroline
C. Hunter, and Steven T. Walther, in their official capacities as Commissioners of the FEC, were originally
named as defendants in the district court. Petersen and
Hunter have since been succeeded as Commissioners of
the FEC by James E. Trainor III and Allen Dickerson.
The individual Commissioners have not separately appealed.
RELATED PROCEEDINGS

United States District Court (D.D.C.):
Ted Cruz for Senate v. FEC, No. 19-908 (June 3,
2021)

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statutory provisions involved ...................................................... 2
Statement ...................................................................................... 2
Reasons for summary vacatur or for postponing jurisdiction ..... 7
Conclusion ................................................................................... 26
Appendix A — Amended notice of appeal
(June 13, 2021) ........................................... 1a
Appendix B — Notice of appeal
(June 11, 2021) ........................................... 3a
Appendix C — District court memorandum opinion
(June 3, 2021) ............................................. 5a
Appendix D — District court order (June 3, 2021) ............. 38a
Appendix E — District court memorandum opinion and
order (Dec. 24, 2019) ............................... 40a
Appendix F — Statutory and regulatory provisions .......... 65a
TABLE OF AUTHORITIES

Cases:
Arbaugh v. Y&H Corp., 546 U.S. 500 (2006) ....................... 13
Arizona State Legislature v. Arizona Independent
Redistricting Commission, 576 U.S. 787 (2015) ............. 25
Broadrick v. Oklahoma, 413 U.S. 601 (1973) ...................... 23
Buckley v. Valeo, 424 U.S. 1 (1976)............................ 2, 17, 19
California v. Texas, No. 19-840 (June 17, 2021)................... 8
Carney v. Adams, 141 S. Ct. 493 (2020) .............................. 15
Christian Legal Soc’y Chapter of the Univ. of
California, Hastings Coll. of the Law v. Martinez,
561 U.S. 661 (2010).............................................................. 16
Clapper v. Amnesty Int’l, 568 U.S. 398 (2013) ................... 14
Clingman v. Beaver, 544 U.S. 581 (2005) ............................ 17
(III)

IV
Cases—Continued:

Page

Cutter v. Wilkinson, 544 U.S. 709 (2005) ............................ 13
Davis v. FEC, 554 U.S. 724 (2008) ........................... 17, 21, 23
FEC v. National Conservative Political Action
Comm., 470 U.S. 480 (1985) ............................................... 19
FEC v. O’Donnell, 209 F. Supp. 3d 727
(D. Del. 2016) ....................................................................... 20
Furnco Construction Corp. v. Waters, 438 U.S. 567
(1978) .................................................................................... 21
Gonzalez v. Automatic Emps. Credit Union,
419 U.S. 90 (1974) ................................................................. 4
Hicks v. Miranda, 422 U.S. 332 (1975) ................................. 8
Kontrick v. Ryan, 540 U.S. 443 (2004) ................................ 13
Lujan v. Defenders of Wildlife, 504 U.S. 555
(1992) .......................................................................... 8, 11, 15
McConnell v. FEC, 540 U.S. 93 (2003) ................................ 14
McCutcheon v. FEC, 572 U.S. 185 (2014) ........................... 22
Natural Res. Def. Council, Inc. v. United States
Food & Drug Admin., 710 F.3d 71 (2d Cir. 2013) ........... 15
Nixon v. Shrink Missouri Gov’t PAC,
528 U.S. 377 (2000).............................................................. 22
Pennsylvania v. New Jersey, 426 U.S. 660 (1976) ............. 14
Shapiro v. McManus, 577 U.S. 39 (2015) ............................. 4
TransUnion LLC v. Ramirez, No. 20-297
(June 25, 2021)............................................................... 12, 14
United States v. Richardson, 418 U.S. 166 (1974) ............. 14
Williams-Yulee v. Florida Bar, 575 U.S. 433 (2015) ......... 24
Wisconsin Right to Life, Inc. v. FEC, 546 U.S. 410,
412 (2006) ............................................................................. 13

V
Constitution, statutes, regulations, and rules:

Page

U.S. Const.:
Art. III .......................................................................... 8, 13
Amend. I .................................................................. passim
Bipartisan Campaign Reform Act of 2002,
Pub. L. No. 107-155, 116 Stat. 81:
§ 403(a), 116 Stat. 113 ................................................... 4, 7
§ 403(a)(1), 116 Stat. 113-114 ............................................ 7
§ 403(a)(3), 116 Stat. 114 ................................................... 8
§ 403(a)(4), 116 Stat. 114 ........................................... 8, 65a
§ 403(d)(2), 116 Stat. 114 ........................................... 7, 66a
Federal Election Campaign Act of 1971,
Pub. L. No. 92-225, 86 Stat. 3 (52 U.S.C. 30101
et seq.)..................................................................................... 2
52 U.S.C. 30106 .................................................................. 2
52 U.S.C. 30116(a) ....................................................... 2, 21
52 U.S.C. 30116(c) ....................................................... 2, 21
52 U.S.C. 30116( j) .................................................. 2, 9, 65a
5 C.F.R. 2635.204 ................................................................... 21
11 C.F.R.:
Section 116.11(b)(1) ................................................... 2, 67a
Section 116.11(c)(1) ................................................... 3, 68a
Section 116.11(c)(2) ......................................... 3, 4, 12, 68a
Fed. R. Civ. P. 56(a) .............................................................. 11
R. of the H. XXV.5 (2019) ..................................................... 21
Standing R. of the S. XXXV (2013) ...................................... 21
Sup. Ct. R. 18.12 .................................................................... 25
Miscellaneous:
Judicial Conference, Code of Conduct for United
States Judges, Canon 4(D)(4) (2019) ................................ 21

In the Supreme Court of the United States
No.
FEDERAL ELECTION COMMISSION, APPELLANT
v.
TED CRUZ FOR SENATE AND
SENATOR RAFAEL EDWARD “TED” CRUZ
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

JURISDICTIONAL STATEMENT

OPINIONS BELOW

An opinion of the district court (App., infra, 5a-37a)
is not yet reported, but is available at 2021 WL 2269415.
A prior opinion and order of the district court (App., infra, 40a-64a) is unreported, but is available at 2019 WL
8272774.
JURISDICTION

The judgment of the district court was entered on
June 3, 2021 (App., infra, 38a-39a). The Federal Election Commission filed a notice of appeal on June 13,
2021 (App., infra, 1a-2a). The jurisdiction of this Court
is invoked under the Bipartisan Campaign Reform Act
of 2002, Pub. L. No. 107-155, § 403(a)(3), 116 Stat. 113114.

(1)

2
STATUTORY PROVISIONS INVOLVED

Pertinent statutory provisions are reproduced at
App., infra, 65a-68a.
STATEMENT

1. The Federal Election Campaign Act of 1971
(FECA), Pub. L. No. 92-225, 86 Stat. 3, as amended by
the Bipartisan Campaign Reform Act of 2002 (BCRA),
Pub. L. No. 107-155, 116 Stat. 81, regulates the financing of federal election campaigns. The Federal Election
Commission (FEC or Commission) is responsible for
administering those statutes. 52 U.S.C. 30106.
Under FECA, BCRA, the FEC’s regulations, and
this Court’s First Amendment precedents, candidates
may use a variety of means to fund their campaigns. A
candidate may spend an unlimited amount of his own
money in support of his election. Buckley v. Valeo, 424
U.S. 1, 52-53 (1976) (per curiam). The campaign may
also accept contributions from individuals and certain
political committees, subject to per-election limits.
52 U.S.C. 30116(a) and (c). And the campaign may borrow money, either from a third-party lender or from the
candidate himself. App., infra, 7a.
As relevant here, federal law imposes three restrictions on the repayment of a candidate’s personal
loans. App., infra, 8a. First, BCRA states that a candidate “shall not” use “contributions made * * * after the
date of [the] election” to repay such “personal loans
* * * to the extent such loans exceed $250,000.”
52 U.S.C. 30116( j). Second, the Commission’s regulations provide that candidate committees may use preelection contributions to repay the portion of the loans
that exceeds $250,000 only if the repayment is made
within 20 days after the election. 11 C.F.R. 116.11(b)(1)

3
and (c)(1). Third, if a candidate loan that exceeds
$250,000 remains unpaid 20 days after the election, the
committee must recharacterize the portion in excess of
$250,000 as a contribution rather than a loan (precluding later repayment). 11 C.F.R. 116.11(c)(2).
2. In 2018, appellee Senator Ted Cruz ran for reelection to represent Texas in the United States Senate.
App., infra, 8a. Senator Cruz’s campaign against Beto
O’Rourke was at the time the most expensive in the Senate’s history. FEC Statement of Undisputed Material
Facts (SMF), D. Ct. Doc. 65, ¶ 52 (July 14, 2020). Appellee Ted Cruz for Senate, Senator Cruz’s principal
campaign committee, raised more than $35 million in
2017-2018. Id. ¶ 53.
The day before the general election, Senator Cruz
lent his committee $260,000—$10,000 more than the
maximum amount that BCRA’s loan-repayment provision allows to be repaid with post-election contributions. App., infra, 8a. After the election, the committee
had approximately $2.2 million in cash on hand. Ibid.
The committee could have used those pre-election funds
to repay Senator Cruz in whole or in part, but it chose
not to do so within the 20-day deadline set by FEC regulations. Id. at 8a-9a. If the committee had used preelection contributions to repay Senator Cruz $10,000
within that 20-day window, it could lawfully have used
post-election funds to repay the remaining $250,000.
Once the 20-day deadline elapsed, the FEC regulation required that $10,000 of the prior $260,000 loan be
recharacterized as a contribution from Senator Cruz to
his campaign. 11 C.F.R. 116.11(c)(2). Senator Cruz
then emailed his campaign staff : “Since more than 20
days have passed, it would be REALLY good if we could
pay back at least some of the $250k now.” SMF ¶ 62

4
(citation omitted). The committee then repaid Senator
Cruz $250,000. App., infra, 9a. But because the committee had purposefully waited until 20 days had
elapsed, it could not repay the remaining $10,000. Ibid.;
see 11 C.F.R. 116.11(c)(2). Appellees have stipulated
that “the sole and exclusive motivation behind Senator
Cruz’ actions in making the 2018 loan and the committee’s actions in waiting to repay them was to establish
the factual basis for this challenge.” SMF ¶ 56.
3. On April 1, 2019, appellees sued the Commission
in federal district court in the District of Columbia, alleging that BCRA’s loan-repayment limit violates the
First Amendment (and raising additional challenges to
the FEC’s regulations). Compl. 1; App., infra, 9a; see
Compl. ¶¶ 34-51. They invoked Section 403(a) of BCRA,
which authorizes a three-judge district court to hear
challenges to “the constitutionality of any provision of
this Act or any amendment made by this Act.” BCRA
§ 403(a), 116 Stat. 113.
When a plaintiff files suit and requests that the case
be heard by a three-judge district court, a single judge
may dismiss the complaint for lack of jurisdiction without convening a three-judge court. See Shapiro v.
McManus, 577 U.S. 39, 45 (2015); Gonzalez v. Automatic Employees Credit Union, 419 U.S. 90, 96 n.14
(1974). Invoking that principle, the FEC moved to dismiss the claims before a three-judge court had been
convened, arguing that appellees lacked standing to
sue. App., infra, 9a. Acting through a single judge, the
district court denied the motion to dismiss and granted
the application to convene a three-judge court. Id. at
40a-64a.

5
The district court concluded that Senator Cruz had
standing to sue because he had suffered a “$10,000 financial injury” due to BCRA’s loan-repayment limit.
App., infra, 51a. Citing appellees’ complaint, the district court stated that, “[f ]ollowing the 20-day repayment period, the Cruz Committee repaid Senator Cruz
the $250,000 statutory maximum using post-election
contributions, but BCRA foreclosed it from paying back
the $10,000 balance.” Id. at 44a. The court observed
that “Senator Cruz loaned his campaign $10,000 more
than he could legally be repaid using post-election contributions”; that the 20-deadline for using pre-election
contributions to repay Senator Cruz had expired; and
that, “[a]s a consequence of all this, Senator Cruz is still
owed $10,000, * * * which is plainly a cognizable injury.” Ibid. The FEC argued that, because the committee could easily have used pre-election contributions
to repay all or part of Senator Cruz’s loan during the 20day post-election window, Senator Cruz’s injury was
self-inflicted. Id. at 52a, 53a-54a. The court rejected
that contention, stating that “[t]he flaw in the FEC’s argument [wa]s that it would require Senator Cruz to
avoid an injury by subjecting himself to the very framework he alleges is unconstitutional.” Id. at 54a.
The FEC took steps to renew its standing argument
during discovery. See 451 F. Supp. 3d 92, 97-98. But
the three-judge court “reject[ed]” the FEC’s argument
“outright.” Id. at 98. The court noted that the single
judge had “explained, in detail, why [the FEC’s] theory
that [appellees] had caused their own injury * * * is
irrelevant to standing,” and it “adopt[ed] that analysis
in its entirety.” Ibid.

6
4. The three-judge district court subsequently
granted appellees’ motion for summary judgment, denied the FEC’s motion for summary judgment, and held
that BCRA’s loan-repayment limit violates the First
Amendment. App., infra, 5a-37a. In its description of
the factual background of the suit, the three-judge court
stated (consistent with appellees’ complaint and the
prior opinion of the single-judge court) that the campaign committee had “repaid Senator Cruz the maximum $250,000 with post-election contributions but
[BCRA’s loan-repayment limit] prevented the campaign from paying back the final $10,000.” Id. at 9a.
The district court first concluded that the loanrepayment limit burdens the exercise of political
speech. App., infra, 11a-19a. The court explained that
the limit “burdens candidates who wish to make * * *
personal loans” to their campaigns by “constrain[ing]
the repayment options available to the candidate.” Id.
at 13a-14a. The court suggested that, as a result of the
limit, a candidate could be “inhibited from making a personal loan * * * out of concern that she will be left holding the bag on any unpaid campaign debt.” Id. at 19a.
Applying heightened scrutiny, the district court then
concluded that the government had not adequately justified this burden on political speech. App., infra, 20a36a. The court acknowledged that, under this Court’s
precedents, Congress may enact campaign-finance laws
to prevent the reality and appearance of quid pro quo
corruption. Id. at 21a. The court concluded, however,
that the FEC had “fail[ed] to demonstrate that quid pro
quo corruption or its appearance arises from post-election
contributions to retire a candidate’s personal debt.” Id.
at 23a. The court noted that “the FEC ha[d] not identified a single case of actual quid pro quo corruption in

7
this context,” and that “many states impose no restriction on using post-election contributions to repay
candidate loans.” Ibid.
The district court further held that the loanrepayment limit “[wa]s not ‘closely drawn’ to protect expressive and associational freedoms.” App., infra, 30a
(citation omitted). The court deemed the limit “over inclusive” because it “applies across the board to winning
and losing candidates, although any purported anticorruption rationale applies only to winning candidates.”
Id. at 31a. The court also found the limit “substantially
underinclusive” because “[a] person may contribute to
retire any outstanding campaign debt, with the exception of a candidate’s personal loans over $250,000.” Id.
at 32a. Finally, the court emphasized that “[t]he loanrepayment limit also imposes an additional regulatory
requirement on top of the existing base [contribution]
limits,” which already protect “against quid pro quo corruption or its appearance.” Id. at 34a.
REASONS FOR SUMMARY VACATUR OR
FOR POSTPONING JURISDICTION

Under Section 403(a) of BCRA, a suit challenging
“the constitutionality of any provision of this Act or any
amendment made by this Act” may be filed in the
United States District Court for the District of Columbia and heard by a three-judge court. § 403(a)(1), 116
Stat. 113-114. A separate provision makes Section
403(a) applicable to suits filed after 2006 if the plaintiffs
so elect, see § 403(d)(2), 116 Stat. 114, and appellees so
elected here, see App., infra, 9a, 43a. Section 403(a)
further provides that, when a plaintiff challenging the
constitutionality of a BCRA provision invokes that special review mechanism, the three-judge district court’s
“final decision in the action shall be reviewable only by

8
appeal directly to the Supreme Court of the United
States.” § 403(a)(3), 116 Stat. 114. “Such appeal shall
be taken by the filing of a notice of appeal within 10
days, and the filing of a jurisdictional statement within
30 days, of the entry of the final decision.” Ibid. Section
403(a) makes it “the duty” of the district court and this
Court “to advance on the docket and to expedite to the
greatest possible extent the disposition of the action
and appeal.” § 403(a)(4), 116 Stat. 114.
In a direct appeal, this Court has “no discretion to
refuse adjudication of the case on its merits as would
have been true had the case been brought here under
[its] certiorari jurisdiction.” Hicks v. Miranda, 422
U.S. 332, 344 (1975). The Court may address the merits
either by granting plenary consideration or by summarily disposing of the appeal. Ibid. Here, the district
court erred both by holding that appellees have standing to challenge BCRA’s loan-repayment limit, and by
holding that the limit violates the First Amendment.
This Court should summarily vacate the district court’s
decision and remand the case for further consideration
of standing in light of its intervening decision in California v. Texas, No. 19-840 (June 17, 2021). Otherwise,
the Court should set the case for plenary consideration.
1. To establish Article III standing, a plaintiff must
show that it suffered an injury-in-fact; that its injury
was fairly traceable to the defendant’s challenged conduct; and that a favorable judicial decision would redress the plaintiff’s injury. See Lujan v. Defenders of
Wildlife, 504 U.S. 555, 560-561 (1992). The standing issue in this case turns on the second of those requirements, traceability.
In this case, the district court held that Senator Cruz
had standing to challenge BCRA’s loan-repayment limit

9
because the committee still owed him $10,000 but could
not repay that sum. App., infra, 51a. That was error.
Although the loss of $10,000 constituted injury, that injury was not fairly traceable to the FEC’s enforcement
of the loan-repayment limit. That is so for two separate
reasons: (1) that injury was not traceable to the enforcement of the specific statutory provision that the
district court held unconstitutional, and (2) the injury
was self-inflicted.
a. In California, this Court explained that, in order
to establish standing, a plaintiff must show that its injury is “ ‘fairly traceable’ to enforcement of the ‘allegedly unlawful’ provision of which the plaintiffs complain.” Slip op. 15 (emphasis added; citation omitted).
A plaintiff does not have standing to challenge a given
provision if its injury is attributable to “other provisions” of law. Id. at 14. In this case, the committee’s
inability to repay Senator Cruz is not attributable to
BCRA’s loan-repayment limit.
i. The loan-repayment limit prohibits a committee
from using more than $250,000 in post-election funds to
repay a candidate’s personal loans. See 52 U.S.C.
30116( j). When the single-judge district court denied
the FEC’s motion to dismiss and granted appellees’ request for a three-judge court, it appropriately took as
true the allegations in appellees’ complaint. Because
appellees’ complaint alleged that the committee had
used post-election funds to repay Senator Cruz
$250,000, the court decided the standing issue based on
that understanding. See App., infra, 44a; Compl. ¶ 31
(alleging that the committee “ha[d] repaid the statutory
maximum of $250,000 from money raised after the election”). If that factual understanding were correct,
BCRA’s loan-repayment limit would indeed prevent the

10
committee from using additional post-election funds to
repay the remaining $10,000.
During discovery, the FEC took steps to renew its
argument that appellees lacked standing. But in ruling
on a discovery dispute, the three-judge court “reject[ed] outright [the Commission’s] argument” and
adopted the single judge’s analysis of standing “in its
entirety.” 451 F. Supp. 3d 92, 98.
ii. In its subsequent merits ruling, the three-judge
district court similarly stated that the committee had
“repaid Senator Cruz the maximum $250,000 with postelection contributions.” App., infra, 9a. That statement, however, was contrary to the summary-judgment
record that had been developed since the single-judge
court’s ruling on the motion to dismiss. That record
made clear that the committee had not yet used any
post-election funds to repay Senator Cruz, but instead
had repaid Senator Cruz $250,000 using only preelection funds.
In particular, that record contained deposition testimony confirming that “[t]he committee did not receive
any post-election contributions at any time after * * *
the general election of 2018.” D. Ct. Doc. 65-9, at 95
(May 13, 2020). The deponent explained that, although
the committee had continued to receive contributions
after election day 2018, it had designated those contributions for use in “the primary and the general 2024
election cycle,” and that none of those funds were
treated as contributions to Senator Cruz’s 2018 campaign. Id. at 96. Further, appellees expressly admitted
that “[n]one of the $250,000 of the loan that was repaid
was from contributions raised after the election.” D. Ct.
Doc. 67-1 ¶ 64; see id. ¶ 60 (admitting that, “during the

11
20 days after the election and later, the Committee continued receiving post-election contributions, but rather
than using those contributions to pay vendors or to pay
any of Senator Cruz’s debt, the campaign designated
the contributions for Senator Cruz’s 2024 re-election effort”).
Thus, by the time the three-judge district court ruled
on the merits of appellees’ First Amendment challenge
to BCRA’s loan-repayment limit, the record made clear
that appellees had used pre- rather than post-election
contributions to repay Senator Cruz $250,000. At that
point, any continued reliance on the contrary allegation
in appellees’ complaint was unwarranted. “[E]ach element [of standing] must be supported in the same way
as any other matter on which the plaintiff bears the burden of proof, i.e., with the manner and degree of evidence required at the successive stages of the litigation.” Defenders of Wildlife, 504 U.S. at 561. At the
summary-judgment stage, “the plaintiff can no longer
rest on * * * ‘mere allegations,’ but must ‘set forth’ by
affidavit or other evidence ‘specific facts.’ ” Ibid. (citation omitted). Appellees did not submit any evidence
suggesting that the committee had used post-election
contributions to repay $250,000 of Senator Cruz’s loan.
And even if they had, the contrary evidence discussed
above would have raised a genuine dispute of material
fact that the court could not have resolved at summary
judgment. See Fed. R. Civ. P. 56(a).
iii. Because the prior $250,000 repayment to Senator
Cruz was made using pre-election funds, nothing in
BCRA’s loan-repayment provision stops the committee
from raising post-election contributions and using those
contributions to repay the remaining $10,000 owed to
Senator Cruz. To the extent that appellees’ injury is

12
attributable to the FEC at all, it flows from the FEC’s
enforcement of an agency regulation, not from its enforcement of the statutory loan-repayment limit. Once
the committee allowed the 20-day post-election period
to expire without repaying any portion of the $260,000
debt it owed to Senator Cruz, an FEC regulation required the committee to recharacterize $10,000 of that
debt—i.e., the increment above the $250,000 statutory
cap—as a contribution to the campaign. See App., infra, 9a; 11 C.F.R. 116.11(c)(2). It is that regulation—
not the statutory loan-repayment limit—that today
prevents the committee from raising and using postelection funds to repay the remainder of Senator Cruz’s
loan. As a result, whether or not appellees had standing
to challenge the regulation, see pp. 13-16, infra (explaining that self-inflicted injury does not give rise to
Article III standing), they lacked standing to challenge
the statute. See Transunion LLC v. Ramirez, No. 20297 (June 25, 2021), slip op. 20 (“[A] plaintiff must
‘demonstrate standing separately for each form of relief
sought.’ ”) (citation omitted).
iv. Based on the record evidence described above,
which had been assembled after the single-judge district court denied the Commission’s motion to dismiss,
the FEC informed the three-judge court that the committee’s $250,000 repayment to Senator Cruz had been
made with pre-election funds. See SMF ¶¶ 60, 64. On
the merits, the FEC relied in part on the committee’s
use of pre-election funds to repay that amount as evidence that appellees had suffered no burden of constitutional magnitude as a result of BCRA’s loan-repayment
limit. See FEC Mot. for Summ. J. 16; FEC Reply in
Supp. of Mot. for Summ. J. 16, 17, 18. The Commission’s
motion for summary judgment did not, however, ask the

13
three-judge court to revisit the Article III standing
analysis that had been adopted by the single judge and
later embraced by the three-judge court. As noted
above, despite the FEC’s references to the record evidence showing that pre-election funds had been used,
the three-judge district court repeated the single-judge
court’s earlier assertion that the $250,000 loan repayment had been made with post-election funds. See App.,
infra, 9a.
Although the FEC’s motion for summary judgment
did not ask the three-judge district court to revisit
standing, the court had “an independent obligation to
determine whether subject-matter jurisdiction exists,
even in the absence of a challenge from any party.” Arbaugh v. Y&H Corp., 546 U.S. 500, 514 (2006). And “[a]
litigant generally may raise a court’s lack of subjectmatter jurisdiction at any time in the same civil action,
even initially at the highest appellate instance.” Kontrick v. Ryan, 540 U.S. 443, 455 (2004).
This Court’s decision in California, which emphasized the need for a plaintiff to demonstrate injury from
the specific provision that is alleged to be unconstitutional, was issued after the proceedings below ended.
This Court therefore should vacate the district court’s
judgment and remand the case for further consideration of standing in light of that intervening decision.
Although the Court could set the case for plenary consideration and consider the issue in the first instance,
vacatur and remand would be more consistent with the
Court’s role as “a court of review, not of first view.”
Cutter v. Wilkinson, 544 U.S. 709, 718 n.7 (2005); see,
e.g., Wisconsin Right to Life, Inc. v. FEC, 546 U.S. 410,
412 (2006) (per curiam).

14
b. Appellees lack standing for a second reason: an
injury is not fairly traceable to the defendant’s conduct
if it is “self-inflicted.” Clapper v. Amnesty International, 568 U.S. 398, 418 (2013); see McConnell v. FEC,
540 U.S. 93, 228 (2003); Pennsylvania v. New Jersey,
426 U.S. 660, 664 (1976) (per curiam). Here, the only
injury identified by the district court—Senator Cruz’s
loss of $10,000—was self-inflicted.
Senator Cruz’s committee had approximately $2.2
million in pre-election funds left on hand after the election. App., infra, 43a. If it had used those funds to pay
Senator Cruz $10,000 or more in the 20 days after the
election, it could lawfully have used post-election contributions to pay any remaining portion of the debt, thus
ensuring that Senator Cruz was fully repaid. See p. 3,
supra. The committee simply chose not to do so. Senator Cruz’s loss of $10,000 thus was attributable to appellees’ “personal choice[s],” not to any action by the
FEC. McConnell, 540 U.S. at 228. Appellees cannot
“be heard to complain about damage inflicted by [their]
own hand.” Pennsylvania, 426 U.S. at 664.
The district court suggested that using pre-election
funds would have harmed appellees because “it would
[have] require[d] Senator Cruz to avoid an injury by
subjecting himself to the very framework he alleges is
unconstitutional.” App., infra, 54a. Under this Court’s
precedents, however, a plaintiff ’s belief that the government has violated the Constitution does not by itself
give him standing. See, e.g., United States v. Richardson, 418 U.S. 166, 175 (1974). “Article III grants federal
courts the power to redress harms that defendants
cause plaintiffs, not a freewheeling power to hold defendants accountable for legal infractions.” TransUnion, slip op. 11 (citation omitted); see id. at 1, 27 (“No

15
concrete harm, no standing.”). And “a plaintiff cannot
establish standing by asserting an abstract ‘general interest common to all members of the public,’ * * * ‘no
matter how sincere’ or ‘deeply committed’ a plaintiff is
to vindicating that general interest.” Carney v. Adams,
141 S. Ct. 493, 499 (2020) (citation omitted).
To be sure, appellees could have sought to establish
their standing by demonstrating that using pre-election
funds to repay Senator Cruz during the 20-day postelection window would itself have injured them in some
concrete way. See, e.g., Natural Resources Defense
Council, Inc. v. United States Food & Drug Administration, 710 F.3d 71, 85 (2d Cir. 2013) (holding that an
injury was not self-inflicted because taking the action
needed to avoid that injury would have subjected the
plaintiff to a different harm). Appellees, however, have
not shown that they would have suffered any concrete
harm from disbursing $10,000 in pre-election funds to
Senator Cruz within the 20-day regulatory deadline.
Appellees argued below that “the Cruz Committee had
a First Amendment right to prioritize its spending of
pre-election contributions by paying vendors and other
creditors rather than reimbursing Senator Cruz, and
the Government cannot demand that the Committee
give up that right to avoid the financial injury resulting
from an unconstitutional statute.” D. Ct. Doc. 29, at 41
(June 28, 2019). But appellees did not identify any specific payment to a vendor or other creditor that the
Committee would have been hindered from making if it
had used $10,000 of pre-election funds to reduce the
debt that it owed to Senator Cruz. Cf. Defenders of
Wildlife, 504 U.S. at 563 (to establish standing, organizations that sought to challenge federal activities that
allegedly harmed endangered and threatened species

16
outside the United States were required to show,
“through specific facts, not only that listed species were
in fact being threatened by funded activities abroad, but
also that one or more of respondents’ members would
thereby be ‘directly’ affected”). And because the funds
with which the committee ultimately repaid the
$250,000 were in the committee’s possession on the date
of the election, and remained in its possession until after
the 20-day post-election window had expired, it is difficult to see how their use for loan-repayment purposes
during that window would have impaired the committee’s ability to pay other creditors.
Indeed, far from identifying any specific actual or
threatened impairment of their ability to pay vendors
or other creditors, appellees stipulated below that “the
sole and exclusive motivation behind Senator Cruz’s actions in making the 2018 loan and the committee’s actions in waiting to repay them was to establish the factual basis for this challenge.” SMF ¶ 56 (citation omitted). A factual stipulation is “binding and conclusive.”
Christian Legal Society Chapter of the University of
California, Hastings College of the Law v. Martinez,
561 U.S. 661, 677 (2010) (citation omitted). Having stipulated that the “sole and exclusive” reason for deferring
any repayment of the loan until after the 20-day postelection window was “to establish the factual basis for
this challenge,” SMF ¶ 56 (citation omitted), appellees
may not now argue that their actual motive for that decision was to make the funds available for use in repaying other creditors.
2. The three-judge district court’s merits holding is
also erroneous. Contrary to the court’s decision, the
loan-repayment limit does not violate the First Amendment.

17
a. The First Amendment allows Congress to regulate the financing of political campaigns. See, e.g.,
Buckley v. Valeo, 424 U.S. 1, 26-27 (1976) (per curiam).
Under this Court’s precedents, the level of scrutiny that
applies to such a regulation depends on “the magnitude
of the burdens imposed.” Clingman v. Beaver, 544 U.S.
581, 591 (2005). “That is, the strength of the governmental interest must reflect the seriousness of the actual burden on First Amendment rights.” Davis v.
FEC, 554 U.S. 724, 744 (2008). The Court has applied a
stringent standard to “expenditure limitations,” which
impose “severe restrictions on protected freedoms,” but
a less stringent standard to “contribution limitations,”
which impose more “marginal restriction[s].” Buckley,
424 U.S. at 21, 23.
The loan-repayment limit imposes at most a modest
burden on First Amendment rights. It does not limit
the amount of money that a candidate may spend, the
amount of money that a campaign may borrow, the
amount of money that a candidate may raise, or the
amount of money that a donor may contribute to a campaign. It does not even impose a ceiling on a campaign’s
ability to repay a candidate’s loans; so long as the campaign uses pre-election funds, it may repay the candidate in full no matter how large the debt. The limit instead imposes a narrow timing restriction: it affects a
campaign’s ability to use a pool of funds raised at a particular time (after the election) for a particular purpose
(repaying personal loans made by the candidate). And
even that restriction on the use of post-election funds to
repay the candidate’s personal loans applies only to the
extent that such repayments exceed $250,000.

18
The district court believed that the loan-repayment
limit burdens speech by “constrict[ing] candidate lending” and “discouraging the personal financing of campaign speech.” App., infra, 15a. That assertion lacks a
sound basis in the record. Most loans to election campaigns are for $250,000 or less, and thus are not affected
by the loan-repayment limit. For example, during the
five most recent election cycles, nearly 80% of the loans
made by Senate candidates and nearly 90% of the loans
made by House candidates were for $250,000 or less.
See SMF ¶ 38-39. Further, “[t]he ratio of loans below
$250,000 has not changed substantially from what the
ratio was prior to BCRA.” Id. ¶ 40. That pattern suggests that, contrary to the court’s speculation, the loanrepayment limit has not meaningfully discouraged the
financing of campaign speech.
The district court’s concerns are particularly misplaced on the facts of this case. The loan at issue here
was not made for the purpose of facilitating “campaign
speech.” App., infra, 15a. Senator Cruz made the loan
the day before the election, and he transparently tailored the loan’s $260,000 amount to facilitate this challenge to the $250,000 loan-repayment cap, while limiting
(to $10,000) the personal financial loss that he might
suffer if his constitutional challenge is ultimately unsuccessful. See p. 14, supra. Indeed, appellees have “stipulate[d] that the sole and exclusive motivation behind
Senator Cruz’s actions in making the 2018 loan * * *
was to establish the factual basis for this challenge.”
SMF ¶ 56.
The statutory limit also did not have the effect of
“constrict[ing] candidate lending.” App., infra, 15a. As
explained above, the committee had more than $2 million in pre-election funds left over after the election, and

19
it could easily have used those funds to repay Senator
Cruz’s loan in full or in part during the first 20 days after the election. It simply chose not to do so, again with
“the sole and exclusive motivation” of “establish[ing] a
factual basis for this challenge.” SMF ¶ 56; see pp. 14,
16, supra. As applied in this case, the loan-repayment
limit thus did not impose any meaningful constraint on
appellees’ expression.
b. The interests served by the loan-repayment limit
amply justify this modest burden on speech. Congress
has a “legitimate and compelling” interest in “preventing corruption or the appearance of corruption.” FEC
v. National Conservative Political Action Committee,
470 U.S. 480, 496 (1985). “To the extent that large contributions are given to secure a political quid pro quo
from current and potential office holders, the integrity
of our system of representative democracy is undermined.” Buckley, 424 U.S. at 26-27. And avoiding the
appearance of corruption is “critical if confidence in the
system of representative Government is not to be
eroded to a disastrous extent.” Id. at 27 (citation and
ellipsis omitted).
For three reasons, the use of post-election contributions to repay personal loans creates a heightened risk
of actual and apparent quid pro quo corruption. First,
money that repays a personal loan after an election effectively goes into the candidate’s pocket. A payment
that adds to a candidate’s personal wealth (and that can
accordingly be used for personal purposes) poses a
greater threat of quid pro quo corruption than a payment that merely adds to a campaign’s treasury (and
that can accordingly be used only for campaign purposes). Common sense suggests, for example, that the

20
risk of corruption is greater when an officeholder receives $2900 that he can use to pay down his mortgage
than when he receives $2900 that his campaign can use
to pay for more placards. Cf. 52 U.S.C. 30114(a) (identifying permissible uses of campaign contributions);
52 U.S.C. 30114(b)(1) (“A contribution or donation described in subsection (a) shall not be converted by any
person to personal use.”); FEC v. O’Donnell, 209
F. Supp. 3d 727, 739-740 (D. Del. 2016) (upholding prohibition on the use of campaign contributions to defray
the candidate’s personal expenses).
Second, a donor who contributes money before an
election does not yet know whether the recipient of the
contribution will prevail, but a donor who contributes
after an election does. In other words, the donor can
know (rather than merely hope) that the recipient will
be in a position to do him official favors. That markedly
increases the risk that the contribution is (or will appear
to the public to be) part of a quid pro quo arrangement.
Third, the primary legitimate rationales for donating to electoral campaigns do not apply to contributions
that postdate the electoral campaign to which the contributions are directed. The most obvious legitimate
reasons for contributing to a political campaign are (1)
pooling resources with other donors to facilitate political expression and (2) increasing, at least marginally,
the likelihood that the favored candidate will prevail. A
post-election contribution serves neither of those purposes. It does not facilitate additional political expression, for the campaign has already ended. And it does
not increase the likelihood that the favored candidate
will prevail, for the election has already occurred. A
post-election contribution is thus more likely than a preelection contribution to be motivated by an expectation

21
of special favors from the recipient. Cf. Furnco Construction Corp. v. Waters, 438 U.S. 567, 577 (1978) (explaining that, “when all legitimate reasons” for an action “have been eliminated,” one may infer that the actor “based his decision on an impermissible consideration”).
The longstanding practice of regulating personal
gifts to public officials supports the congressional judgment underlying the loan-repayment limit. Rules adopted
by the Senate and House of Representatives restrict
members’ acceptance of gifts worth $50 or more. See
Standing Rule of the Senate XXXV (2013); House Rule
XXV.5 (2019). That limit is far smaller than the amount
(currently $2900 per election) that an individual may
contribute to a federal candidate’s campaign. See App.,
infra, 6a n.1; 52 U.S.C. 30116(a) and (c). Regulations
adopted by the Executive Branch restrict federal employees’ acceptance of gifts worth $20 or more from persons whose interests may be affected by the performance of the employees’ official duties. See 5 C.F.R.
2635.204. Regulations adopted by the Judicial Conference likewise restrict judges’ acceptance of gifts. See
Judicial Conference, Code of Conduct for United States
Judges, Canon 4(D)(4) (2019). The loan-repayment
limit rests on the same common-sense judgment as
those rules: a payment that goes into a public official’s
pocket creates a serious danger of actual or apparent
corruption.
In sum, the loan-repayment limit imposes at most a
marginal restriction on speech to promote an interest of
the highest order. Because “the strength of the governmental interest” outweighs “the seriousness of the actual burden on First Amendment rights,” the limit complies with the Constitution. Davis, 554 U.S. at 744.

22
c. The district court’s contrary rationales lack
merit. The court faulted the FEC for failing to produce
empirical evidence that the loan-repayment limit prevents the reality or appearance of corruption. App., infra, 21a-30a. This Court has explained, however, that
“[t]he quantum of empirical evidence needed to satisfy
heightened judicial scrutiny of legislative judgments
will vary up or down with the novelty and plausibility of
the justification raised.” Nixon v. Shrink Missouri
Government PAC, 528 U.S. 377, 391 (2000). The judgment underlying the loan-repayment limit—that payments that go directly into a candidate’s pocket raise a
particularly serious risk of corruption—is neither novel
nor implausible, but instead underlies conflict-of-interest
rules that apply to officials in all three Branches of the
federal government. And because the loan-repayment
limit has now been in place for 20 years, the district
court should have “recogniz[ed] that no data can be
marshaled to capture perfectly the counterfactual world
in which [such] limits do not exist.” McCutcheon v.
FEC, 572 U.S. 185, 219 (2014) (opinion of Roberts, C.J.).
In any event, the Commission presented extensive
empirical evidence that the loan-repayment limit helps
to prevent the reality and appearance of corruption.
For instance, the FEC cited a study showing that “indebted politicians, relative to their debt-free counterparts, are significantly more likely to switch their votes
if they receive contributions from * * * special interests between the votes.” SMF ¶ 67 (citation omitted).
The FEC identified numerous episodes in which officeholders had awarded government contracts and other
special favors after receiving contributions designed to
pay down personal debt. Id. ¶¶ 69-81. And it cited opinion polling showing that more than 80% of respondents

23
believed that individuals who donate money to a campaign after an election expect political favors in return.
Id. ¶ 90.
The district court also concluded that the limit is
“over inclusive” because it “applies across the board to
winning and losing candidates, although any purported
anticorruption rationale applies only to winning candidates.” App., infra, 31a. That rationale, too, is mistaken. First, as a general matter, “a person to whom a
statute may constitutionally be applied will not be heard
to challenge that statute on the ground that it may conceivably be applied unconstitutionally to others, in
other situations not before the Court.” Broadrick v. Oklahoma, 413 U.S. 601, 610 (1973). Senator Cruz won the
2018 election, and the government’s anticorruption rationale applies to winning candidates with full force.
Whether the loan-repayment limit would be constitutional as applied to a losing candidate is a separate question not presented in this case.
Second, to the extent that First Amendment overbreadth doctrine allows a litigant vicariously to assert
the rights of third parties, the litigant must still show
that the challenged law is “substantially overbroad” “in
relation to the statute’s plainly legitimate sweep.”
Broadrick, 413 U.S. at 615. Appellees have not satisfied
that standard here; evidence in the record showed that
post-election contributions generally flow to winning
candidates and that the loan-repayment limit has little
effect on losing candidates. SMF ¶ 42. Third, establishing separate rules for winning and losing candidates
would have risked creating the kind of “asymmetrical
contribution scheme” that this Court has previously
found unconstitutional. Davis, 554 U.S. at 735.

24
After concluding that the loan-repayment limit restricts too much speech, the district court concluded
that it restricts too little. App., infra, 32a-33a. The
court found the limit “substantially underinclusive” because it applies to candidate loans but not to “other
types of campaign debt”; because it applies to post-election
contributions but not to contributions made “before the
election”; and because it permits “post-election contributions to retire pre-election debt * * * up to the
$250,000 cap.” Ibid. That analysis is misconceived.
Contributions that repay candidate loans differ fundamentally from contributions that repay third-party
loans, since the former personally enrich the candidates
while the latter do not. Pre-election contributions likewise differ fundamentally from post-election contributions, since the latter are made after the winner of the
election is known and are particularly likely to reflect
an expectation of special favors. See p. 20, supra. And
although Congress could have prohibited all uses of
post-election contributions to repay personal loans
made by candidates to their campaigns, its decision to
permit such repayments up to the $250,000 cap reflects
an effort to accommodate candidates who wish to use
personal loans as a method of campaign financing. In
all events, “the First Amendment imposes no freestanding ‘underinclusiveness limitation.’ ” Williams-Yulee v.
Florida Bar, 575 U.S. 433, 449 (2015) (citation omitted).
This Court should not “punish [Congress] for leaving
open more, rather than fewer, avenues of expression,
especially when there is no indication that the selective
restriction of speech reflects a pretextual motive.” Id.
at 452.
Finally, the district court found the loan-repayment
limit unconstitutional because it was “[l]ayered on top”

25
of base limits on campaign contributions—limits that, in
the court’s view, already adequately combated corruption and its appearance. App., infra, 34a. But as shown
above, a contribution made after an election to repay a
candidate’s personal loan poses a heightened risk of corruption, over and above the risk posed by a pre-election
contribution in the same amount. See pp. 19-21, supra.
The First Amendment permits Congress to adopt “an
additional restriction,” App., infra, 34a, to address that
additional danger.
3. The district court thus erred both in holding that
appellees have standing to challenge BCRA’s loan-repayment limit, and in declaring unconstitutional a provision of an Act of Congress. This Court should summarily vacate the district court’s judgment and remand
the case for further consideration of standing in light of
the Court’s intervening decision in California. Alternatively, the Court should set the case for plenary consideration. *

* This Court may set a direct appeal for plenary consideration
through either an order noting probable jurisdiction or an order
postponing consideration of jurisdiction. See Sup. Ct. R. 18.12. Because the FEC has advanced a substantial argument that appellees
lack standing, the appropriate course here—if the Court declines to
vacate the judgment below—would be to postpone consideration of
jurisdiction. See, e.g., Arizona State Legislature v. Arizona Independent Redistricting Commission, 576 U.S. 787, 793 (2015).

26
CONCLUSION

This Court should summarily vacate the judgment of
the district court and remand the case for further consideration of standing in light of California v. Texas,
No. 19-840 (June 17, 2021). Alternatively, the Court
should postpone jurisdiction.
Respectfully submitted.
LISA J. STEVENSON
Acting General Counsel
KEVIN DEELEY
Associate General Counsel
HARRY J. SUMMERS
Assistant General Counsel
SETH NESIN
Attorney
Federal Election Commission

JULY 2021

ELIZABETH B. PRELOGAR
Acting Solicitor General
MALCOLM L. STEWART
Deputy Solicitor General
VIVEK SURI
Assistant to the Solicitor
General

APPENDIX A
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

Civ. No. 19-908 (NJR, APM, TJK)
TED CRUZ FOR SENATE, ET AL., PLAINTIFFS
v.
FEDERAL ELECTION COMMISSION, ET AL., DEFENDANTS
Filed:

June 13, 2021

NOTICE OF APPEAL
DEFENDANT FEDERAL ELECTION COMMISSION’S
AMENDED NOTICE OF APPEAL

Notice is hereby given that the Federal Election
Commission, defendant in this case, appeals to the Supreme Court of the United States, pursuant to Section
403 of the Bipartisan Campaign Reform Act of 2002,
Pub. L. No. 107-155, 116 Stat. 114, from the judgment of
this Court entered in this action on June 3, 2021.
Respectfully submitted,
/s/

SETH NESIN
SETH NESIN
Attorney
snesin@fec.gov
COUNSEL FOR DEFENDANT
FEDERAL ELECTION COMMISSION
(1a)

2a
1050 First Street NE
Washington, DC 20463
(202) 694-1650
June 13, 2021
Lisa J. Stevenson (D.C. Bar No. 457628)
Acting General Counsel
lstevenson@fec.gov
Kevin Deeley
Associate General Counsel
kdeeley@fec.gov
/s/ HARRY J. SUMMERS
HARRY J. SUMMERS
Assistant General Counsel
hsummers@fec.gov

3a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

Civ. No. 19-908 (NJR, APM, TJK)
TED CRUZ FOR SENATE, ET AL., PLAINTIFFS
v.
FEDERAL ELECTION COMMISSION, ET AL., DEFENDANTS
Filed:

June 11, 2021

NOTICE OF APPEAL
DEFENDANT FEDERAL ELECTION COMMISSION’S
NOTICE OF APPEAL

Notice is hereby given that the Federal Election Commission, defendant in this case, appeals to the Supreme
Court of the United States from the decision and order
of this Court entered in this action on June 3, 2021.
Respectfully submitted,
/s/

SETH NESIN
SETH NESIN
Attorney
snesin@fec.gov
COUNSEL FOR DEFENDANT
FEDERAL ELECTION COMMISSION
1050 First Street NE

4a
Washington, DC 20463
(202) 694-1650
June 11, 2021
Lisa J. Stevenson (D.C. Bar No. 457628)
Acting General Counsel
lstevenson@fec.gov
Kevin Deeley
Associate General Counsel
kdeeley@fec.gov
Harry J. Summers
Assistant General Counsel
hsummers@fec.gov

5a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

Civil No. 19-cv-908 (NJR) (APM) (TJK)
TED CRUZ FOR SENATE, ET AL., PLAINTIFFS
v.
FEDERAL ELECTION COMMISSION, ET AL., DEFENDANTS
Filed:

June 3, 2021

MEMORANDUM OPINION

Before: RAO, Circuit Judge, MEHTA and KELLY, District Judges.
RAO, Circuit Judge:
In our constitutional democracy, elections are the
primary way for the people to express their political will.
Political speech promotes the free exchange of ideas
about principles of government, pressing policy matters,
and the relative merits of candidates for office. In recognition of the centrality of free speech to our democracy, the Supreme Court has consistently held that “the
First Amendment ‘has its fullest and most urgent application’ to speech uttered during a campaign for political
office.” Eu v. San Fran. Cnty. Dem. Cent. Comm., 489
U.S. 214, 223 (1989) (quoting Monitor Patriot Co. v.
Roy, 401 U.S. 265, 272 (1971)). Protections for political
speech extend to campaign financing because effective

6a
speech requires spending money.
See Buckley v.
Valeo, 424 U.S. 1, 19-23 (1976) (per curiam).
This case raises a constitutional challenge to a somewhat obscure campaign finance restriction that limits
the amount of post-election contributions that may be
used to repay a candidate’s pre-election loans. Section
304 of the Bipartisan Campaign Reform Act of 2002 prohibits candidates from using post-election contributions
to repay personal loans over $250,000. See 52 U.S.C.
§ 30116( j) (the “loan-repayment limit”). Senator Rafael Edward “Ted” Cruz and his campaign committee
Ted Cruz for Senate brought this suit to invalidate and
enjoin the enforcement of Section 304 and its implementing regulation. We find that the loan-repayment
limit burdens political speech and thus implicates the
protection of the First Amendment. Because the government has failed to demonstrate that the loan-repayment
limit serves an interest in preventing quid pro quo corruption, or that the limit is sufficiently tailored to serve
this purpose, the loan-repayment limit runs afoul of the
First Amendment. We therefore grant summary judgment for Senator Cruz and his campaign.
I.
A.
Candidates for federal office require substantial funds
to support their campaigns. Funding may come from
individual contributions, which are subject to a perelection cap. 1 See Federal Election Campaign Act of
The current base limit is set at $2,900 per election. See 86 Fed.
Reg. 7,867, 7,869 (Feb. 2, 2021). A primary election, general election, runoff election, and special election are treated as separate
elections. See 52 U.S.C. § 30101(1)(A).
1

7a
1971 (“FECA”), Pub. L. No. 92-225, 86 Stat. 3 (codified
as amended at 52 U.S.C. § 30116); see also 52 U.S.C.
§ 30116(a)(1)(A) & (c).
Candidates may also selffinance their campaigns without monetary limits. See
11 C.F.R. § 110.10; see also Buckley, 424 U.S. at 51-54.
Self-financing often takes the form of loans, either from
a candidate’s personal funds or through a third-party
lender. A campaign may repay a candidate’s loans using contributions received both before and after the
election. Under Section 304 of the Bipartisan Campaign Reform Act of 2002 (“BCRA”), however, a campaign may repay only $250,000 of a candidate’s preelection loans with post-election contributions. See
Pub. L. No. 107-155, § 304, 116 Stat. 81 (codified at 52
U.S.C. § 30116( j)).
The loan-repayment limit intersects with other restrictions on the use of campaign contributions promulgated by the Federal Election Commission (“FEC” or
“Commission”). For instance, an individual may designate a contribution for a particular election, including a
previous election. See 11 C.F.R. § 110.1(b)(2)(i). If
designated for a previous election, a contribution may
be accepted “only to the extent that [it] does not exceed
net debts outstanding” from that election. See id.
§ 110.1(b)(3)(i). A campaign’s “net debts outstanding”
for an election equals the “total amount of unpaid debts
and obligations” minus its total available resources.
Id. § 110.1(b)(3)(ii)(A)-(C). A campaign may accept
postelection contributions only to the extent necessary
to pay down a net shortfall. To effectuate the loanrepayment limit in Section 304, the calculation of “net
debts outstanding” excludes the amount of any candidate loans “that in the aggregate exceed $250,000 per

8a
election.” Id. § 110.1(b)(3)(ii)(C). The $250,000 limit applies to third-party loans secured by the candidate and
also to loans from the candidate’s personal funds. See
id. § 116.11(a).
A campaign has two options to pay back a candidate’s
personal loans. First, a campaign “[m]ay repay the entire amount of the personal loans using contributions”
made before the election. Id. § 116.11(b)(1). If the campaign chooses to use pre-election contributions, “it must
do so within 20 days of the election.” Id. § 116.11(c)(1).
Second, pursuant to Section 304, a campaign may repay
up to $250,000 of the personal loans with post-election
contributions. After the election, any balance of the
personal loan that exceeds $250,000 will be treated “as a
contribution by the candidate.” Id. § 116.11(c)(2).
B.
This case arose from Senator Cruz’s 2018 campaign
for reelection to the United States Senate. The day before the general election, Senator Cruz made two loans
totaling $260,000 to his campaign: $5,000 from his personal bank account and $255,000 from a third-party lender
secured with his personal assets. Senator Cruz won
reelection.
After the election, Senator Cruz’s campaign had almost $2.5 million in debt against approximately $2.2 million in cash on hand. The campaign “used the funds it
had on hand to pay vendors and meet other obligations
instead of repaying [Senator Cruz’s] loans.” Compl.
¶ 29, ECF No. 1. The campaign did not use any preelection funds within twenty days of the election to repay the Senator’s loans, as Section 304’s implementing

9a
regulation would have permitted. Instead, the campaign repaid Senator Cruz the maximum $250,000 with
post-election contributions but Section 304 prevented
the campaign from paying back the final $10,000. The
$10,000 balance of those loans was subsequently deemed
a campaign contribution from Senator Cruz.
Senator Cruz and his campaign (collectively, the
“Cruz campaign”) brought suit against the FEC, alleging that Section 304 of BCRA and its implementing regulation, 11 C.F.R. § 116.11, violate the First Amendment. The complaint contends that the loan-repayment
limit unconstitutionally infringes the First Amendment
rights of Senator Cruz, his campaign, other candidates,
and any individuals who might seek to make post-election
contributions. Because the complaint concerned a constitutional challenge to a provision of BCRA, the Cruz
campaign also applied for a three-judge district court
pursuant to Section 403 of BCRA and 28 U.S.C. § 2284.
The FEC moved to dismiss for lack of standing and also
argued that a three-judge court would not have subject
matter jurisdiction. The one-judge district court denied the FEC’s motion to dismiss, held the Cruz campaign had standing to challenge the loan-repayment
limit, and granted the Cruz campaign’s application for a
three-judge district court. See Ted Cruz for Senate v.
FEC, 2019 WL 8272774, at *5-8 (D.D.C. Dec. 24, 2019).
We convened to hear and decide the case. Following
additional preliminary proceedings, 2 the Cruz campaign and the FEC both moved for summary judgment.

We assumed supplemental jurisdiction over the Cruz campaign’s
constitutional and Administrative Procedure Act claims against
the implementing regulation. See Ted Cruz for Senate v. FEC, 451
2

10a
Summary judgment is warranted if “there is no genuine
dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” FED. R. CIV. P. 56(a).
“[I]n ruling on cross-motions for summary judgment,
the court shall grant summary judgment only if one of
the moving parties is entitled to judgment as a matter of
law upon material facts that are not genuinely disputed.” Shays v. FEC, 424 F. Supp. 2d 100, 109
(D.D.C. 2006). Because the Cruz campaign and the
FEC agree that there is no genuine dispute of material
fact, we resolve this case by summary judgment.
II.
To determine whether the loan-repayment limit
abridges First Amendment rights we follow the approach taken in McCutcheon v. FEC, the Supreme
Court’s most recent foray into the constitutionality of a
campaign finance regulation. 572 U.S. 185 (2014) (plurality opinion). First, we assess whether the loan-repayment limit burdens political speech and thus implicates the protection of the First Amendment. Second,
because we conclude that the limit burdens political
speech, we must carefully scrutinize the government’s
interests and the fit between that interest and the regulatory means chosen to effectuate it. Even under the
less exacting test of closely drawn scrutiny, we find the
government fails to demonstrate that the loan-repayment

F. Supp. 3d 92, 100 (D.D.C. 2020). We held these claims in abeyance pending resolution of the constitutional challenge to Section
304. Order, Ted Cruz for Senate v. FEC, No. 1:19-cv-00908 (D.D.C.
Apr. 15, 2020), ECF No. 49. Our holding that Section 304 cannot
pass constitutional muster moots the Cruz campaign’s regulatory
challenges.

11a
limit serves an interest in preventing quid pro quo corruption or its appearance. Moreover, the loan-repayment limit has only a tenuous connection to the asserted
government interest in preventing corruption and thus
lacks the close tailoring necessary under the First
Amendment.
A.
When presented with a less familiar type of campaign
finance regulation, we must determine at the outset
whether the restriction burdens the exercise of political
speech. See id. at 203-06; Ariz. Free Enter. Club’s Freedom Club PAC v. Bennett, 564 U.S. 721, 736-47 (2011);
Davis v. FEC, 554 U.S. 724, 738-40 (2008). The Cruz
campaign argues the loan-repayment limit burdens
speech by limiting campaign expenditures and contributions. The FEC maintains the limit does not burden
speech at all. We find the loan-repayment limit burdens political speech and thus implicates the protection
of the First Amendment.
The First Amendment provides that “Congress shall
make no law . . . abridging the freedom of speech.”
U.S. CONST. amend. I. This Amendment “is designed
and intended to remove governmental restraints from
the arena of public discussion, putting the decision as to
what views shall be voiced largely into the hands of each
of us, in the belief that no other approach would comport
with the premise of individual dignity and choice upon
which our political system rests.” McCutcheon, 572 U.S.
at 203 (cleaned up). Robust and free political discussion is essential to the republican form of government
established by our Constitution. Given the fundamental interests at stake, the First Amendment “safeguards
an individual’s right to participate in the public debate

12a
through political expression and political association.”
Id. Because financing for political campaigns implicates the freedom to speak and to associate, the Supreme Court has long recognized that limitations on
campaign spending “necessarily reduce[] the quantity of
expression by restricting the number of issues discussed, the depth of their exploration, and the size of the
audience reached.” Buckley, 424 U.S. at 19.
Since Buckley, the Court’s decisions have focused on
identifying whether a restriction on campaign finance
burdens expenditures or contributions, in part because
the distinction can affect the standard of review. 3 See
id. at 25, 44-45. But it is well established that both expenditures and contributions implicate “fundamental
First Amendment activities.” Id. at 14. When a candidate makes expenditures on behalf of her campaign,
she exercises her right to speak; and when a contributor
donates to that campaign, he exercises the right to associate with the candidate and to express his support.
The contributions to a campaign in turn promote more
expenditures and political speech by the candidate.
In recent decisions, the Court has declined to eliminate the distinction between expenditures and contributions even as it has focused on speech interests more
generally. See, e.g., McCutcheon, 572 U.S. at 199; id.
at 228 (Thomas, J., concurring in the judgment) (suggesting that the distinction between expenditures and

While burdens on expenditures must withstand strict scrutiny,
the Court has assessed burdens on contributions under a less demanding, “but still ‘rigorous standard of review.’ ” McCutcheon,
572 U.S. at 197 (quoting Buckley, 424 U.S. at 29).
3

13a
contributions “has only continued to erode in the intervening years”) (cleaned up). The Court has emphasized the central question of whether and how a challenged regulation burdens political speech. For example, in McCutcheon, the Court explained that Buckley’s
distinction between expenditure and contribution limits
stemmed from the “the degree to which each encroaches
upon protected First Amendment interests.” Id. at
197. The Court assessed the burden on expressive and
associational rights imposed by the aggregate contribution limits challenged in that case. See id. at 204-05.
In Davis, the Court found that a regulation burdened a
candidate’s expenditures because it raised contribution
limits asymmetrically, that is, only for the opponents of
a candidate who spent over a certain amount of his own
money. See 554 U.S. at 738-40. The Court focused on
how the regulation functioned to analyze the burden
that it imposed. See id.; see also Bennett, 564 U.S. at
736-47 (evaluating the specific operation of Arizona’s
matching funds provision and holding that it substantially burdened speech). In a political campaign, expenditures and contributions are part of a connected cycle of speech and association protected by the First
Amendment.
We find that the loan-repayment limit restricts political expression and association for candidates and their
contributors. To begin with, the loan-repayment limit
burdens candidates who wish to make expenditures
through personal loans because the limit constrains the

14a
repayment options available to the candidate. 4 Whereas other campaign debts may be repaid by post-election
contributions, candidate loans above $250,000 do not receive the same treatment. That the candidate makes a
choice to finance his campaign with personal loans, rather than through other forms of debt, does not minimize the First Amendment harm. Cf. Davis, 554 U.S.
at 739 (“The resulting drag on First Amendment rights
is not constitutional simply because it attaches as a consequence of a statutorily imposed choice.”). Candidate
loans comprise the majority of campaign debt, and personal loans will sometimes be the only way for a candidate to raise enough money for an effective campaign in
the short term. The limit places a particular burden on
relatively unknown challengers who may require more
financing up front in order to wage an effective campaign against a better funded incumbent. See Anderson v. Spear, 356 F.3d 651, 673 (6th Cir. 2004) (“[A] candidate may need to speak early in order to establish her
position and garner contributions.”).
We also note that since the enactment of BCRA and
the loan-repayment limit, “there is a clear clustering of
In general, a loan from a candidate to his campaign is treated as
an expenditure. Both FECA and its regulations define the term “expenditure” to include loans. See 52 U.S.C. § 30101(9)(A)(i) (“The
term ‘expenditure’ includes . . . any . . . loan, . . . made
by any person for the purpose of influencing any election for Federal
office[.]”); 11 C.F.R. § 100.111(a) (“A . . . loan . . . made by
any person for the purpose of influencing any election for Federal
office is an expenditure.”); 11 C.F.R. § 100.111(b) (“For purposes of
this section, the term payment includes . . . any guarantee or
endorsement of a loan by a candidate or a political committee.”); see
also Anderson v. Spear, 356 F.3d 651, 672 (6th Cir. 2004) (“[L]oans
are candidate expenditures, unless and until they are repaid.”).
4

15a
loans right at the $250,000 threshold.” Alexei Ovtchinnikov & Philip Valta, Debt in Political Campaigns 24
(HEC Paris Research Paper No. FIN-2016-1165, May
2020). During this same time period, the percentage of
candidate loans above $250,000 has remained roughly
the same while spending on Senate and House campaigns has more than doubled, indicating that the loanrepayment limit constricts candidate lending.
We find the burden imposed by Section 304 “is evident and inherent in the choice that confronts” candidates who wish to use personal loans to finance their
campaigns. Bennett, 564 U.S. at 745 (citing Davis, 554
U.S. at 738-40). The limit imposes a “drag” on the candidate’s First Amendment activity by discouraging the
personal financing of campaign speech. Davis, 554
U.S. at 739.
The FEC defends the constitutionality of the loanrepayment limit by maintaining that it does not burden
political speech at all, because “[m]oney that repays a
candidate’s personal loan after an election effectively
goes into the candidate’s pocket, and not to fund speech
or speech-related activities.” FEC Mem. in Supp. of
Mot. for Summ. J. (“FEC Mot.”) 20, ECF No. 65. The
Commission highlights that the loan-repayment limit
does not cap the amount of candidate financing or prohibit a candidate from loaning his campaign more than
$250,000, and the candidate remains free to repay the
full amount of the loan with pre-election contributions.
While it is true that the loan-repayment limit is not a
ban on personal financing, the First Amendment’s protection has never been limited to direct restrictions on
expenditures, because “[t]he First Amendment would
. . . be a hollow promise if it left government free to

16a
destroy or erode its guarantees by indirect restraints.”
United Mine Workers of Am. v. Ill. State Bar Ass’n, 389
U.S. 217, 222 (1967). Laws that regulate in the First
Amendment arena must be scrutinized even when the
“deterrent effect on [speech] arises, not through direct
government action, but indirectly as an unintended but
inevitable result of the government’s conduct.” Buckley, 424 U.S. at 65.
Even indirect regulations of speech may run afoul of
the First Amendment, because they can “abridg[e] the
freedom of speech.” U.S. CONST. amend. I. The word
“abridge” means “to contract, to diminish, to cut short.”
1 SAMUEL JOHNSON, A DICTIONARY OF THE ENGLISH
LANGUAGE (6th ed. 1785); see also OXFORD ENGLISH
DICTIONARY 43 (2d ed. 1989) (“abridge”: “To curtail,
to lessen, to diminish (rights, privileges, advantages, or
authority)”). At the time of the enactment of the First
Amendment, as well as today, the plain meaning of
“abridge” is to diminish or to curtail the freedom of
speech. Consistent with this meaning, the First Amendment protects individuals not only from direct and outright bans on speech, but also indirect actions the government might take to “abridge” the central freedom to
speak freely in the democratic process.
Following these general principles, the Supreme Court
has found a First Amendment burden even absent an
outright ban or cap, when the regulation acted as a
“drag” on speech—which is to say an “abridgment” of
speech. Davis, 554 U.S. at 739-40. In Davis, the Supreme Court held unconstitutional a provision of BCRA
that relaxed the base contribution limits for a candidate’s opponents if the candidate spent more than
$350,000 of his own funds. The provision burdened

17a
free speech rights even though it “d[id] not impose a cap
on a candidate’s expenditure of personal funds.” Id. at
738-39. Instead, the challenged provision “impose[d]
an unprecedented penalty” on candidates who chose to
“robustly exercise[] [their] First Amendment right[s].”
Id. at 739. Similarly, in Bennett, the Court held unconstitutional an Arizona law that gave matching funds
to publicly financed candidates if privately financed
candidates—or independent expenditure groups—spent
over a set amount. See 564 U.S. at 728. The Court
concluded that the Arizona law “plainly force[d] the privately financed candidate to ‘shoulder a special and potentially significant burden’ when choosing to exercise
his First Amendment right to spend funds on behalf of
his candidacy.” Id. at 737 (quoting Davis, 554 U.S. at
739). If the law curtails a candidate’s ability to speak
on his behalf, it runs afoul of the First Amendment even
when the law is not an outright ban.
The FEC seeks to distinguish Davis and Bennett because those cases involved a penalty for candidate speech
above a certain threshold, whereas the loan-repayment
limit has no similar penalty—by loaning his campaign
more than $250,000 a candidate does not indirectly fund
his opponent through either liberalized, asymmetrical
contribution limits (Davis) or matching funds (Bennett).
First Amendment burdens, however, are not limited to
prescribed forms. Our review must scrutinize regulatory burdens in order to vigorously protect the freedom
of speech. While not identical to previously challenged

18a
regulations, the loan-repayment limit restricts a candidate’s campaign expenditures by circumscribing the repayment options for candidate loans over $250,000. 5
The FEC’s insistence that the loan-repayment limit
does not burden political speech overlooks the reality of
how the limit functions. The FEC narrowly focuses on
the repayment of the loan and through this lens notes
that the loan-repayment limit does not restrict expenditures because the candidate remains free to loan or contribute as much money as he wishes to his campaign. 6
The FEC’s cramped understanding of the First Amendment fails to provide adequate protection to the important free speech interests at stake. The FEC would
isolate the transactions at issue until they no longer resemble campaign expenditures or contributions.

On the flip side, the loan-repayment limit may also impact contributors. Candidate loans over $250,000 are singled out and excluded from the “net debts outstanding” that a campaign may pay
off with post-election contributions. The FEC’s regulations permit
contributors to designate their contributions for a prior election.
An individual who wanted to contribute to Senator Cruz after the
2018 election could not have contributed to—and thus expressed his
support for—Senator Cruz’s 2018 election campaign if the only debt
remaining was the Senator’s loan in excess of $250,000.
6
The FEC suggests there is no restriction on political speech in
this case, relying on FEC v. O’Donnell, 209 F. Supp. 3d 727 (D. Del.
2016). That case is inapposite, however, because it concerned
FECA’s ban on the use of contributions to pay a candidate’s personal
expenses. The court held such contributions did not “facilitate
political expression.” Id. at 739. By contrast, the loan-repayment
limit restricts political expression and implicates the First Amendment in a way that personal expenses for a new outfit and a gym
membership arguably do not. See 52 U.S.C. § 30114(b)(2)(B) & (I).
5

19a
In determining whether First Amendment interests
are implicated, however, we must focus on whether a
statute burdens political speech, not whether a particular regulatory label is a perfect fit. The relative novelty of a campaign finance regulation cannot insulate it
from judicial scrutiny because “political speech must
prevail against laws that would suppress it, whether by
design or inadvertence.” Citizens United v. FEC, 558
U.S. 310, 340 (2010). Legislators may try different
regulatory approaches to protect against quid pro quo
corruption; however, any such regulation of campaigns
must comport with the First Amendment.
The loan-repayment limit implicates First Amendment interests. A candidate’s loan to his campaign is
an expenditure that may be used for expressive acts.
Such expressive acts are burdened when a candidate is
inhibited from making a personal loan, or incurring one,
out of concern that she will be left holding the bag on
any unpaid campaign debt.
This case illustrates the reality that contributions
and expenditures are often “two sides of the same First
Amendment coin.” Buckley, 424 U.S. at 241 (Burger,
C.J., concurring in part and dissenting in part). Contributions allow a candidate to make further expenditures, reflecting the practical link between the associational and expressive activity of the candidate and contributor. By limiting the amount of post-election contributions that can be used to retire candidate loans, the
loan-repayment limit abridges political speech and implicates the protection of the First Amendment.

20a
B.
Because the loan-repayment limit encumbers political speech, the government has “the burden of proving
the constitutionality of its actions.” McCutcheon, 572
U.S. at 210 (cleaned up). The parties dispute the relevant standard of review. The Cruz campaign maintains we should apply either the strict scrutiny applicable to expenditure limits or the closely drawn scrutiny
applied to contribution limits. By contrast, the FEC
suggests the loan-repayment limit must be analyzed under deferential rational basis review because the limit
burdens no First Amendment interests. Because we
find the loan-repayment limit restricts expressive and
associational interests in political campaigns, we must
apply a form of heightened scrutiny, either strict or
closely drawn.
Under either form of heightened scrutiny, we assess
the government’s asserted interest in restricting speech
and the fit between that interest and the means the government has chosen to fulfill it. See id. at 199. Applying strict scrutiny, a regulation will be upheld only if it
furthers a compelling government interest and the government uses the least restrictive means of furthering
that interest; whereas under closely drawn scrutiny a
regulation will be upheld “if the State demonstrates a
sufficiently important interest and employs means closely
drawn to avoid” abridging First Amendment freedoms.
See id. at 197.
The loan-repayment limit fails under even the less
exacting test of closely drawn scrutiny and so, as in
McCutcheon, we have no need to “parse the differences”
between the standards of scrutiny. Id. at 199. The government fails to demonstrate that the loan-repayment

21a
limit serves an interest in addressing quid pro quo corruption. In addition, we find “a substantial mismatch,”
id., between the government’s asserted interest and the
loan-repayment limit.
1.
The government bears the burden of demonstrating
that the loan-repayment limit serves a sufficiently important interest that justifies the burden on political
speech. The Supreme Court has made clear that the
only recognized government interest in restraining political speech is “preventing corruption or the appearance of corruption.” Id. at 206-07. The Court has
considered—and rejected—other government justifications such as “reduc[ing] the amount of money in politics,” id. at 191; “level[ing] electoral opportunities by
equalizing candidate resources and influence,” Bennett,
564 U.S. at 748 (cleaned up); reducing “[i]ngratiation
and access,” Citizens United, 558 U.S. at 360; or equalizing viewpoints among individuals and groups, Buckley,
424 U.S. at 48-49. The government’s interest in eliminating corruption is limited to quid pro quo corruption,
in other words, “dollars for political favors.” McCutcheon, 572 U.S. at 192 (quoting FEC v. Nat’l Conserv.
PAC, 470 U.S. 480, 497 (1985)). To comport with the
First Amendment, a regulation of political speech must
target only this particular form of corruption, which
means “the Government may not seek to limit the appearance of mere influence or access.” Id. at 208.
In addition, it is not sufficient for the FEC merely to
assert an interest in preventing quid pro quo corruption.
The government must demonstrate the validity of its interest by more than “mere conjecture.” Nixon v.
Shrink Mo. Gov’t PAC, 528 U.S. 377, 392 (2000).

22a
“When the Government defends a regulation on speech
as a means to . . . prevent anticipated harms, it
must do more than simply posit the existence of the disease sought to be cured.” Colo. Repub. Fed. Campaign
Comm. v. FEC, 518 U.S. 604, 618 (1996) (cleaned up).
Moreover, “[t]he quantum of empirical evidence needed
to satisfy heightened judicial scrutiny of legislative
judgments will vary up or down with the novelty and
plausibility of the justification raised.” Shrink Mo.,
528 U.S. at 391; see also Zimmerman v. City of Austin,
881 F.3d 378, 392-93 (5th Cir. 2018) (discussing cases).
We assess the FEC’s asserted interests in light of these
standards.
The FEC maintains that the loan-repayment limit
addresses the heightened risk and appearance of quid
pro quo corruption that results from elected officeholders soliciting contributions that will be used to repay
their personal loans.
The Commission posits that
“[m]oney given after the election . . . provides the
contributor with even more influence over the candidate
since the candidate is benefiting personally from the
contribution.” FEC Statement of Material Facts (“FEC
SMF”) ¶ 73, ECF No. 65 (cleaned up). The Commission repeatedly characterizes post-election contributions used to repay candidate loans as going into the candidate’s pocket. The FEC also points to media reports
of debt retirement parties as giving rise “to at least the
appearance of federal candidates trading dollars for favors in the context of repayment of candidate loans.”
FEC Mot. 33. The Commission maintains there is a
public perception that individuals who contribute to candidates after an election are likely to expect a political
favor in return.

23a
Despite these assertions, the Commission fails to
demonstrate that quid pro quo corruption or its appearance arises from post-election contributions to retire a
candidate’s personal debt. We first observe that the
FEC has not identified a single case of actual quid pro
quo corruption in this context. This is particularly notable given that many states impose no restriction on using post-election contributions to repay candidate
loans, 7 and the Commission fails to identify any problems with quid pro corruption or its appearance in these
states. Cf. Citizens United, 558 U.S. at 357 (finding it
significant that the government failed to claim that “independent expenditures by for-profit corporations
. . . corrupted the political process” in the twenty-six
states that did not restrict such expenditures). Here
the FEC’s few state examples involve only concerns that

The Cruz campaign identifies ten states that cap candidate loans
or restrict candidate loan repayment in some fashion. See Cruz
Mem. in Supp. of Mot. for Summ. J. 28 & n.4, ECF No. 61-1. Georgia and South Carolina cap the repayment of candidate loans with
postelection contributions, similar to BCRA’s loan-repayment limit.
See GA. CODE ANN. § 21-5-41(h); S.C. CODE ANN. § 8-13-1328.
Although Florida permits candidate loans and their repayment with
pre-election contributions, it bans all post-election contributions.
See FLA. STAT. § 106.08(3)(b). Alaska, Rhode Island, Texas, and
Washington cap the repayment of candidate loans with either preor post-election contributions. See ALASKA STAT. § 15.13.078(b)(1);
17 R.I. GEN. LAWS § 17-25-7.4; TEX. ELEC. CODE § 253.042(A);
WASH. REV. CODE § 42.17A.445(3). California, Massachusetts, and
Nebraska place no limit on the repayment of candidate loans but instead cap the amount that candidates may loan their campaigns.
See CAL. GOV’T CODE § 85307(B); MASS. GEN. LAWS ch. 55, § 7; NEB.
REV. STAT. § 49-1446.04; 4 NEB. ADMIN. CODE ch. 10, § 004(02). The
Commission does not contest that “only a minority of states” restrict
candidate campaign loans in some way. FEC Mot. 34.
7

24a
candidates will be too responsive to the influence of special interests or concerns about contributions unrelated
to the repayment of candidate loans. See, e.g., FEC
SMF ¶¶ 76, 79.
By contrast, in cases that have found a sufficient anticorruption interest, the record has been robust. In
Buckley, the Court cited “the deeply disturbing examples surfacing after the 1972 election” as demonstrating
that the problem of quid pro quo corruption was “not an
illusory one.” 424 U.S. at 27 & n.28; see also Buckley
v. Valeo, 519 F.2d 821, 838-40 & nn.26-38 (D.C. Cir. 1975)
(en banc) (describing extensive factual record before
Congress). In McConnell v. FEC, the omnibus challenge to BCRA, the record before the court consisted of
more than 100,000 pages, including “576 pages of proposed findings of fact” and “the testimony and declarations of over 200 fact and expert witnesses.” 251
F. Supp. 2d 176, 208-09 (D.D.C. 2003). In Bluman v.
FEC, the court pointed to “public controversy and an extensive investigation by the Senate Committee on Governmental Affairs,” including specific examples of foreign governments attempting “to ‘influence U.S. policies
and elections through, among other means, financing
election campaigns,’ ” as justification for BCRA’s ban on
expenditures and contributions by foreign nationals.
800 F. Supp. 2d 281, 283 (D.D.C. 2011) (quoting S. REP.
NO. 105-67, at 47 (1998)).
A lengthy record may not be sufficient to demonstrate corruption, but the absence of any record of such
corruption undermines the government’s proffered interest. The FEC cannot carry its substantial burden
by simply asserting that post-election contributions to

25a
repay a candidate’s loans may come with expectations of
a political favor.
In the absence of any evidence of actual corruption,
the FEC turns elsewhere. For instance, the Commission
relies heavily on an academic article that concluded
“[i]ndebted politicians . . . exhibit a heightened sensitivity in their voting decisions to political contributions
received from special interest groups.” Ovtchinnikov
& Valta, Debt in Political Campaigns 29. The article,
however, does not distinguish between voting pattern
changes as a consequence of donor influence or access
and voting pattern changes as part of quid pro quo corruption. In a representative democracy, mere influence or access is not the type of quid pro quo corruption
that justifies infringements on political speech. A “generic favoritism or influence theory . . . is at odds
with standard First Amendment analyses because it is
unbounded and susceptible to no limiting principle.”
McConnell v. FEC, 540 U.S. 93, 296 (2003) (Kennedy, J.,
concurring in the judgment in part and dissenting in
part). “The line between quid pro quo corruption and
general influence may seem vague at times, but the distinction must be respected in order to safeguard basic
First Amendment rights.” McCutcheon, 572 U.S. at
209.
The Commission also places great weight on a selective legislative history of the loan-repayment limit, arguing that lawmakers intended to “mitigate the heightened risk of quid pro quo corruption and its appearance
resulting from already-elected officeholders soliciting

26a
contributions for their own personal benefit.” 8 FEC
Mot. 6. Even on the doubtful proposition that assertions in legislative debates could carry the government’s
burden, these statements from the legislative history
amount to mere suppositions about the appearance of
corruption. Moreover, the Cruz campaign proffers
other tidbits of legislative history, including numerous
statements suggesting that some legislators thought the
loan-repayment limit would protect incumbents from
wealthy challengers. 9 The competing statements in

See, e.g., 147 CONG. REC. S2,462 (Mar. 19, 2001) (statement of
Sen. Domenici) (“In fact, it should be a condition to your putting up
your own money, knowing right up front you are not going to get it
back from your constituents under fundraising events that you
would hold and then ask them: How would you like me to vote now
that I am a Senator?”); 147 CONG. REC. S2,541 (Mar. 20, 2001) (statement of Sen. Hutchison) (“[Candidates] have a constitutional right
to try to buy the office, but they do not have a constitutional right to
resell it.”).
9
See, e.g., 147 CONG. REC. S2,541 (Mar. 20, 2001) (statement of
Sen. Hutchison) (“Our purpose is to level the playing field so that
one candidate who has millions, if not billions, of dollars to spend on
a campaign will not be at such a significant advantage over another
candidate who does not have such means as to create an unlevel playing field.”); 147 CONG. REC. S2,465 (Mar. 19, 2001) (statement of Sen.
Sessions) (“It also prohibits wealthy candidates, who incur personal
loans in connection with their campaign that exceed $250,000, from
repaying those loans from any contributions made to the candidate.
. . . I know there were large contributions in this last Senate campaign from candidates of $10 million, $60 million, and other amounts
of money that the winning candidates in this body contributed from
their own funds. I tell you, I am glad I didn’t face a person who
could write a check for $60 million, $10 million—or $5 million, for
that matter. If so, I would like to be able to have a level playing
field so I could stay in the ball game.”).
8

27a
the legislative history of BCRA establish no clear emphasis on eradicating quid pro quo corruption as opposed to the impermissible purpose of leveling the playing field.
In addition, the loan-repayment limit, Section 304 of
BCRA, was enacted at the same time as Section 319, the
so-called “Millionaire’s Amendment,” which the Supreme Court held unconstitutional in part because it was
intended to “level electoral opportunities for candidates
of different personal wealth.” Davis, 554 U.S. at 741
(cleaned up). While Section 304 may serve a different
purpose from Section 319, the text of BCRA, as well as
the legislative debates, linked the two provisions, which
suggests that the loan-repayment limit may also “further the impermissible objective of simply limiting the
amount of money in political campaigns.” McCutcheon, 572 U.S. at 218. At a minimum, the connection between the provisions casts further doubt on the government’s asserted anticorruption interest.
Finally, the FEC relies on media reports and a
YouGov poll, but these similarly fail to establish that restrictions like the loan-repayment limit serve the purpose of preventing quid pro quo corruption. The media
reports merely hypothesize that individuals who contribute after the election to help retire a candidate’s
debt might have greater influence with or access to the
candidate. Yet this is not evidence of quid pro quo corruption, and minimizing influence and access is not a
proper goal for campaign finance regulation.
The
YouGov poll was conducted at the FEC’s behest for this
litigation to demonstrate that the loan-repayment limit
addresses the appearance of corruption. The poll first

28a
asked respondents whether they were aware that candidates could loan their campaigns money and then be
paid back with post-election contributions. FEC Mot.
Ex. 16, ECF No. 65-16 (Decl. of Ashley Grosse, Ex. A).
In the poll’s only two follow-up questions, 81 percent of
respondents thought it “very likely” or “likely” that individuals who donate money to a federal candidate’s
campaign after an election “expect a political favor in return,” and 67 percent of respondents thought donors
would “be more likely to expect political favors” if there
were no limit on repaying a candidate loan with postelection contributions. Id. The FEC relies on these
responses as evidence that the loan-repayment limit addresses “at least the appearance of quid pro quo corruption.” FEC Mot. 32.
We disagree. Such generic questions do not get at
the specific problem of quid pro quo corruption the government asserts this statute combats. On the government’s reasoning, the poll answers would raise doubts
about any contributions to incumbents (i.e. winning candidates) who use post-election contributions to retire
any type of campaign debt. Even if contributors who
donate to retire a candidate’s debt expect political favors, that hardly demonstrates that the (now elected) official is more likely to grant such political favors. Moreover, the poll did not define the term “political favor,” so
the poll’s responses are not evidence that the public associates such contributions with quid pro quo corruption, which Congress may regulate, or simply increased
influence and access, which Congress may not. See
McCutcheon, 572 U.S. at 208. Finally, the poll failed to
mention that the individual contribution limit applies to
post-election contributions just as it does to pre-election

29a
contributions. That omission renders the poll an ineffective measure of public perception of possible corruption in this context. At most, the poll suggests that
some members of the public distrust or are skeptical
about using contributions to repay candidate loans, but
the “tendency to demonstrate distrust” is insufficient to
establish corruption or its appearance. Nat’l Conserv.
PAC, 470 U.S. at 499. We conclude the FEC fails to
demonstrate that the loan-repayment limit serves an interest in preventing quid pro quo corruption.
The FEC also maintains that the loan-repayment
limit prevents the circumvention of base contribution
limits because without the limit a candidate could keep
outstanding loans from past campaigns, which would allow individuals to stack up maximum contributions for
each election for which the candidate had open loans.
The problem with the FEC’s position, however, is that
contributors are permitted to make multiple contributions at a single time—they can contribute to retire debt
from a previous election (subject to the loan-repayment
limit) and they can contribute to any ongoing campaign
for a future election. Each of these separate perelection contributions, however, is limited by the base
contribution limit. Nothing about the potential for
stacking circumvents the base limits. What the FEC
terms “circumvention” is in fact a lawful contribution
under existing campaign finance laws.
The government suggests it is dissatisfied with the
possibility of large one-time contributions, which the
FEC treats as a kind of legal loophole. Yet the loanrepayment limit does little to close the ostensible loophole, because the limit applies only to a candidate’s personal loans, not to other campaign debt. Also, the FEC

30a
fails to identify a plausible financial incentive for a candidate to carry significant personal campaign debt over
many years simply to keep open the possibility of soliciting larger stacked donations in the future.
In sum, the FEC’s position amounts to speculation
that contributions to pay off a candidate’s personal loans
carry a danger of quid pro quo corruption, but the Supreme Court has “never accepted mere conjecture as
adequate to carry a First Amendment burden.”
Shrink Mo., 528 U.S. at 392. The government has
failed to demonstrate that its interest in the loan-repayment limit is sufficiently important, because the limit
serves no additional purpose in preventing quid pro quo
corruption or the circumvention of base contribution
limits. With little connection to any actual or perceived
quid pro quo corruption interest, the FEC’s asserted rationale boils down to a general concern about money in
politics and campaign contributions to incumbents—but
such general concerns about influence or access cannot
justify government regulation in the vital area of political speech.
2.
Even if the government had shown that the limit was
justified by an important government interest, the loanrepayment limit is not “closely drawn” to protect expressive and associational freedoms. McCutcheon, 572
U.S. at 218 (quoting Buckley, 424 U.S. at 25). “In the
First Amendment context, fit matters.” Id. The government’s rationale for the loan-repayment limit fits
about as well as a pair of pandemic sweatpants. The
First Amendment requires a better fit than that.

31a
When assessing fit even under standards short of
strict scrutiny, we “require a fit that is not necessarily
perfect, but reasonable; that represents not necessarily
the single best disposition but one whose scope is in proportion to the interest served, that employs not necessarily the least restrictive means but a means narrowly
tailored to achieve the desired objective.” Id. (cleaned
up). As part of the inquiry we consider “whether experience under the present law confirms a serious threat
of abuse,” and whether there are less burdensome alternatives available to the government in securing its interests. Id. at 219 (quoting FEC v. Colo. Repub. Fed.
Campaign Comm., 533 U.S. 431, 457 (2001)).
In arguing for a close fit, the FEC maintains “[t]he
Loan Repayment Limit is tailored to apply in situations
when the strength of the government’s important anticorruption interests are at their peak,” because “the
candidate will be in a position to grant political favors to
[post-election] contributors.” FEC Mot. 40. Moreover, the FEC asserts, the limit is well tailored because
it applies only to situations in which “the candidate or
officeholder is directly, personally benefiting from the
contributions,” and it does not prevent campaigns from
repaying the loans in full with pre-election funds. Id.
at 41.
Contrary to the government’s assertions, the loan-repayment limit is not sufficiently tailored to achieve the
objective of preventing quid pro quo corruption or its
appearance. To begin with, the loan-repayment limit is
over inclusive. It applies across the board to winning
and losing candidates, although any purported anticorruption rationale applies only to winning candidates.
The FEC’s primary defense of the regulation is that

32a
post-election contributions used to retire a candidate’s
personal campaign loans are particularly susceptible to
quid pro quo corruption or its appearance. This justification, however, does not apply to candidates who lose
an election and therefore have no way to provide improper benefits to contributors who donate to retire
election debt. Losing candidates are less likely to receive post-election contributions and, in any event, contributions made to a losing candidate pose essentially no
risk of corruption or its appearance. See Anderson,
356 F.3d at 673 (invalidating a state cap on candidate
loans and explaining that “the risk of quid pro quo is
virtually non-existent where the contribution is made to
a losing candidate who seeks to recoup some of his
debt”). When a campaign finance regulation sweeps in
conduct well beyond the government’s asserted rationale, it does not provide the close fit required by the
First Amendment.
The loan-repayment limit is also substantially underinclusive as to the government’s asserted interests.
Although “the First Amendment imposes no freestanding underinclusiveness limitation,” a law’s underinclusiveness can indicate a poor fit and can raise doubts
about whether the law advances the interests invoked
by the government. Williams-Yulee v. Fla. Bar, 135
S. Ct. 1656, 1668 (2015) (cleaned up). Here, aside from
the loan-repayment and base contribution limits, there
are no restrictions on post-election contributions made
to retire other types of campaign debt. A person may
contribute to retire any outstanding campaign debt,
with the exception of a candidate’s personal loans over
$250,000.
The FEC argues that a candidate who

33a
makes a loan to his campaign that he expects will be repaid is more dependent on outside contributions than a
candidate who simply gives the money to his campaign.
Yet not all candidates can afford to just give money to
their campaigns—and there is nothing inherently corrupting about receiving campaign contributions after an
election.
The FEC’s concerns regarding post-election contributions to retire candidate loans seem to apply equally
to any contribution made to an incumbent, because all
incumbents are in a position to grant favors. But Congress does not restrict pre-election contributions to incumbents except through the base contribution limit.
The government has advanced no reason why a contribution made to an incumbent before the election poses
no risk of corruption, but the same contribution made
after the election to a winning candidate (now incumbent) and applied to pre-election debt poses a unique
and heightened concern of quid pro quo corruption.
The government’s fit rationale also cannot explain
why post-election contributions to retire pre-election
debt are permissible up to the $250,000 cap. This cap
means that in the current election cycle, a campaign
committee can accept just over eighty-six maximum contributions after the election to repay a candidate loan
(eighty-six contributions of $2,900 aggregates to
$249,400, just shy of the $250,000 ceiling). It is hardly
clear why the eighty-seventh or eighty-eighth contributor poses a particular danger of quid pro corruption.
Cf. McCutcheon, 572 U.S. at 210. Instead, the $250,000
cap operates to limit or disincentivize the total amount
of campaign expenditure a candidate makes through
personal loans.

34a
The loan-repayment limit also imposes an additional
regulatory requirement on top of the existing base limits. The loan-repayment limit is exactly the sort of
“prophylaxis-upon-prophylaxis approach” that demands
“we be particularly diligent in scrutinizing the law’s fit.”
Id. at 221 (cleaned up). As the D.C. Circuit has explained, “an additional constraint layered on top of the
base limits . . . separately need[s] to serve the interest in preventing the appearance or actuality of corruption.” 10 Holmes v. FEC, 875 F.3d 1153, 1161 (D.C.
Cir. 2017) (en banc) (cleaned up). Post-election contributions, like contributions made before an election, are
subject to the base limits, which serve to prevent the
dangers of quid pro quo corruption. Layered on top of
the base limits, the loan-repayment limit places an additional restriction on pre-election expenditures and postelection contributions, but the government has failed to
demonstrate that the limit provides additional protection against quid pro quo corruption or its appearance.
The Commission next tries to demonstrate fit by
minimizing the burden of the loan-repayment limit.
For instance, the Commission maintains that the loan-

Other circuit courts have similarly interpreted McCutcheon as
requiring the government to make an additional showing to justify
campaign finance restrictions that operate on top of base limits.
See, e.g., Jones v. Jegley, 947 F.3d 1100, 1106 (8th Cir. 2020) (“Just
as in McCutcheon, Arkansas’s failure here to provide any evidence
that its blackout period accomplishes anything more than the $2,700
base limits alone means that it cannot survive exacting scrutiny.”);
Zimmerman v. City of Austin, 881 F.3d 378, 392 (5th Cir. 2018)
(holding restrictions in addition to the base limit “must be justified
by evidence that the additional limit serves a distinct interest in preventing corruption that is not already served by the base limit”).
10

35a
repayment limit “increase[s] the funds available to campaign committees,” and so does not “prevent[] campaigns from ‘amassing the resources necessary for effective advocacy.’ ” FEC Mot. 41 (quoting Randall v.
Sorrell, 548 U.S. 230, 247 (2006) (plurality opinion)).
The FEC overreads Randall, which noted that if a contribution limit prevents a campaign from amassing the
necessary resources, it cannot survive under the First
Amendment. See Randall, 548 U.S. at 248. It does
not logically follow, however, that if a campaign can
manage to amass necessary resources, the regulation
survives First Amendment scrutiny. Preventing candidates from amassing resources is only one of the reasons a regulation of political speech may fail under the
First Amendment, and therefore it cannot serve as an
independent basis for upholding a regulation. Cf. Libertarian Nat’l Comm. v. FEC, 924 F.3d 533, 558-59
(D.C. Cir. 2019) (en banc) (Katsas, J., concurring in part,
concurring in the judgment, and dissenting in part).
Moreover, the determination of what resources are
“necessary” for effective speech must be left to individual speakers, not the FEC.
Finally, the Commission urges this court to defer to
Congress’s judgment that the loan-repayment limit is
necessary for combatting corruption. While we must
respect the legislative choices of Congress acting within
its constitutional sphere, we cannot defer on the question of whether a particular legislative choice is in fact
constitutional. “We must give weight to attempts by
Congress to seek to dispel either the appearance or the
reality of [corruptive] influences. The remedies enacted by law, however, must comply with the First
Amendment; and it is our law and our tradition that

36a
more speech, not less, is the governing rule.” Citizens
United, 558 U.S. at 361; see also Schneider v. State, 308
U.S. 147, 161 (1939) (explaining that legislative judgments may be “insufficient to justify” a restriction that
“diminishes the exercise of rights so vital to the maintenance of democratic institutions”). Courts cannot rubber stamp congressional preferences when important
First Amendment interests are at stake.
In sum, we hold that the government failed to meet
its burden of demonstrating that the loan-repayment
limit serves an interest in combatting quid pro quo corruption or its appearance and that in any event the loanrepayment limit is insufficiently tailored to meet this objective.
* * *
When it comes to campaign finance regulation, the
foxes are effectively in charge of the political henhouse,
because elected officials set the rules for future elections. The Constitution, however, does not leave our
liberties to the foxes. Laws regulating political speech
implicate First Amendment rights essential to a free democracy, and courts have an independent duty to scrutinize the government’s interest as well as the means
chosen to realize it. To protect “the political responsiveness at the heart of the democratic process,”
McCutcheon, 572 U.S. at 227, Congress may regulate
political speech only to prevent the specific problem of
quid pro quo corruption. The loan-repayment limit
does not serve that interest, and the government’s arguments to the contrary boil down to hypothetical concerns about influence and access to incumbents. Such
justifications are not sufficient under the First Amendment to uphold a statute that burdens political speech.

37a
The loan-repayment limit intrudes on fundamental
rights of speech and association without serving a substantial government interest.
For the foregoing reasons, we hold that the loanrepayment limit, Section 304 of BCRA, is unconstitutional because it violates the First Amendment. Thus,
the court denies the Commission’s motion for summary
judgment and grants the Cruz campaign’s motion for
summary judgment. A separate order accompanies
this memorandum opinion.

38a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

Case No. 319-cv-908 (NJR, APM, TJK)
TED CRUZ FOR SENATE, ET AL., PLAINTIFFS
v.
FEDERAL ELECTION COMMISSION, ET AL., DEFENDANTS
Filed:

June 3, 2021
ORDER

For the reasons set forth in the court’s Memorandum
Opinion, ECF No. 71, the court grants Plaintiffs’ Motion
for Summary Judgment and denies Defendants’ CrossMotion for Summary Judgment. It is further ordered
that Plaintiffs’ regulatory claims, previously held in
abeyance, are dismissed as moot.
This is a final, appealable Order.
Dated:

June 3, 2021
/s/ NEOMI J. RAO
NEOMI J. RAO
United States Circuit Court Judge
/s/ AMIT P. MEHTA
AMIT P. MEHTA
United States District Court Judge

39a
/s/ TIMOTHY J. KELLY
TIMOTHY J. KELLY
United States District Court Judge

40a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

Case No. 19-cv-908 (APM)
TED CRUZ FOR SENATE, ET AL., PLAINTIFFS
v.
FEDERAL ELECTION COMMISSION, ET AL, DEFENDANTS
Filed:

Dec. 24, 2019

MEMORANDUM OPINION AND ORDER
I.

INTRODUCTION

Plaintiffs, Senator Rafael Edward Cruz (“Senator
Cruz”) and Ted Cruz for Senate (“Cruz Committee” or
“Committee”), seek declaratory and injunctive relief invalidating and enjoining the enforcement of Section 304
of the Bipartisan Campaign Reform Act (“BCRA”) and
its implementing regulations, which place limits on the
amount of post-election contributions that may be used
to pay back a candidate’s pre-election loans. They have
asked the court to convene a three-judge district court
to hear their challenges in accordance with BCRA’s judicial review provision. Defendants, the Federal Election Commission and its four current Commissioners
(collectively the “FEC”), oppose that request and have
moved to dismiss the Complaint for lack of jurisdiction.
For the reasons that follow, the court grants Plaintiffs’

41a
motion to convene a three-judge court and denies the
FEC’s motion to dismiss.
II.

BACKGROUND
A.

Legal Background

1. The Loan Repayment Limit
In 2002, Congress enacted the Bipartisan Campaign
Reform Act (“BCRA”), Pub. L. No. 107-155, 116 Stat. 81,
which amended the Federal Election Campaign Act of
1971 (“FECA”). One provision of BCRA states that a
“candidate who incurs personal loans . . . in connection with the candidate’s campaign for election shall not
repay (directly or indirectly), to the extent such loans
exceed $250,000, such loans from any contributions
made to such candidate or any authorized committee of
such candidate after the date of such election.” 52
U.S.C. § 30116( j). The FEC’s implementing regulations clarify that BCRA’s $250,000 limit applies both to
loans secured by the candidate for the benefit of his
campaign and to loans made to the campaign from the
candidate’s personal funds. 11 C.F.R. § 116.11(a).
BCRA and its implementing regulations (collectively
the “Loan Repayment Limit”) thus give a campaign committee two options for paying back a candidate’s personal loans after an election. First, the committee may
repay up to “the entire amount of the personal loans using contributions to the candidate or the candidate’s authorized committee provided that those contributions
were made on the day of the election or before.” Id.
§ 116.11(b)(1). If the committee elects to use preelection contributions to repay all or part of the loan,
“it must do so within 20 days of the election.” Id.
¶ 116.11(c)(1).

42a
Alternatively, the committee “[m]ay repay up to
$250,000 of the personal loans from contributions made
to the candidate or the candidate’s authorized committee after the date of the election.” Id. § 116.11(b)(2).
There is no time limit on when the campaign may repay
the $250,000 using post-election contributions; however,
the committee “[m]ust not repay . . . the aggregate
amount of the personal loans that exceeds $250,000,
from contributions to the candidate or the candidate’s
authorized committee if those contributions were made
after the date of the election.” Id. § 116.11(b)(3). After the 20-day post-election period has elapsed, the committee must “treat the remaining balance of the candidate’s personal loan that exceeds $250,000 as a contribution from the candidate.” See Increased Contribution
and Coordinated Party Expenditure Limits for Candidates Opposing Self-Financed Candidates, 68 Fed. Reg.
3970, 3974 (Jan. 27, 2003); see also 11 C.F.R. § 116.11(c)(2).
2. Judicial Review of Constitutional Challenges
to BCRA
Section 403 of BCRA provides that “[i]f any action is
brought for declaratory or injunctive relief to challenge
the constitutionality of any provision of this Act[,] . . .
[t]he action shall be filed in the United States District
Court for the District of Columbia and shall be heard by
a 3-judge court convened pursuant to [28 U.S.C.] section
2284.” See Pub. L. No. 107-155, § 403(a) (codified at 52
U.S.C. § 30110 note (hereinafter BCRA § 403)). The
party seeking to convene a three-judge court must file a
request, whereupon “the judge to whom the request is
presented shall” initiate the process, “unless he determines that three judges are not required.” 28 U.S.C.
§ 2284(b)(1). A three-judge court’s final decision on

43a
such an action “shall be reviewable only by appeal directly to the Supreme Court of the United States.”
BCRA § 403(a)(3).
B.

Factual Background

This case arises from Senator Cruz’s 2018 reelection
campaign for the United States Senate. On the day before the November 6, 2018 general election, Senator
Cruz made two loans totaling $260,000 to the Cruz Committee to help finance his campaign. See Compl., ECF
No. 1 [hereinafter Compl.], ¶ 28; Ted Cruz for Senate,
FEC Form 3 at 401-02 (Jan. 31, 2019). 1 Of the $260,000
lent to the Committee, $5,000 originated from Senator
Cruz’s personal bank accounts and $255,000 originated
from a margin loan secured with Senator Cruz’s personal assets. Compl. ¶ 28.
At the close of election day, the Cruz Committee had
approximately $2.2 million on hand and nearly $2.5 million in debts associated with the 2018 general election.
Id. ¶ 29. The Committee then “used the funds it had on
hand to pay vendors and meet other obligations instead
of repaying [Senator Cruz’s] loans.” Id. The Committee did not use any of the funds it had on hand to pay
off Senator Cruz’s loans during the 20-day period, meaning that after that period elapsed, the balance of those
loans that exceeded BCRA’s $250,000 statutory cap on
post-election contributions—$10,000—converted into
a campaign contribution. See id. ¶¶ 30-31; 11 C.F.R.
§ 116.11(c)(2).

Available at https://docqueryfec.gov/pdf/325/20190131914523532
5/201901319145235325.pdf.
1

44a
Following the 20-day repayment period, the Cruz
Committee repaid Senator Cruz the $250,000 statutory
maximum using post-election contributions, but BCRA
foreclosed it from paying back the $10,000 balance.
Compl. ¶¶ 31-32. Plaintiffs allege that, “[a]bsent the
restrictions of [BCRA] and the Commission’s corresponding regulation[s],” they “would solicit debt-retirement funds from potential donors and would use postelection contributions to defray the remaining $10,000
loan balance.” Id. ¶ 33.
C.

Procedural History

In April 2019, Plaintiffs filed suit against the FEC,
contending that: (1) the Loan Repayment Limit unconstitutionally infringes on their First Amendment
rights to freedom of speech; (2) the limit also infringes
on the First Amendment free speech rights of potential
post-election donors; and (3) the implementing regulation, 11 C.F.R. § 116.11, is contrary to law and arbitrary
and capricious. See Compl. ¶¶ 5, 34-51. On the same
day, Plaintiffs filed a request to convene a three-judge
district court pursuant to BCRA § 403 and 28 U.S.C.
§ 2284. See Appl. For a Three-Judge Court, ECF No. 2.
The FEC opposes Plaintiffs’ motion to appoint a
three-judge court and seeks dismissal of Plaintiffs’
Complaint for lack of jurisdiction. See Defs.’ Opp’n to
Pls.’ Appl. for a Three-Judge Court and Mot. to Dismiss
for Lack of Subject-Matter Jurisdiction, ECF No. 25
[hereinafter Defs.’ Mot.]. The FEC argues that this
case is not justiciable because Plaintiffs lack standing,
see id. at 13-24, and that the three-judge court lacks subject-matter jurisdiction over the case because Plaintiffs’
constitutional claims are “wholly insubstantial,” see id.
at 25-44. The FEC also contends this court should

45a
deny Plaintiffs’ request to convene a three-judge court
with respect to their challenges to the implementing
regulations because the three-judge court would lack
authority to rule on those challenges. Id. at 44-45.
Plaintiffs retort that (1) the FEC’s standing argument
must be resolved by a three-judge court, and that in any
event Plaintiffs do have standing; (2) their challenges
are constitutionally substantial; and (3) a three-judge
court has, at a minimum, supplemental jurisdiction to
adjudicate Plaintiffs’ challenges to the FEC’s implementing regulations.
See generally Pls.’ Reply in
Supp. of Their Appl. For a Three-Judge Court & Resp.
to Defs.’ Mot. to Dismiss, ECF No. 29 [hereinafter Pls.’
Reply].
III.
A.

DISCUSSION
Plaintiffs’ Standing
1. This Court Has Jurisdiction to Decide the Standing Question

Plaintiffs contend that BCRA’s requirement that a
three-judge court be convened to hear any “action” challenging BCRA’s constitutionality precludes a singlejudge court from ruling on a motion to dismiss for lack
of standing in such an action. Plaintiffs’ rigid reading
of the word “action,” however, is foreclosed by binding
Supreme Court precedent.
Section 403 of BCRA provides that a three-judge district court shall adjudicate any “action . . . brought
for declaratory or injunctive relief to challenge the
constitutionality of any provision of this Act.” BCRA
§ 403(a)(3). Though framed in mandatory terms, the
provision cross-references 28 U.S.C. § 2284, which provides that a single judge need not convene a three-judge

46a
panel if she “determines that three judges are not required.” § 2284(b)(2). The Supreme Court has held
that a “three-judge court is not required where the district court itself lacks jurisdiction [over] the complaint
or the complaint is not justiciable in the federal courts.”
Shapiro v. McManus, 136 S. Ct. 450, 455 (2015) (quoting
Gonzalez v. Automatic Emp. Credit Union, 419 U.S. 90,
100 (1974)). A case is not justiciable in federal courts
when the plaintiff lacks standing, and therefore the absence of standing is a “ground upon which a single judge
[may] decline[] to convene a three-judge court.” See
Gonzalez, 419 U.S. at 100.
Plaintiffs object that Gonzalez and Shapiro are inapposite because they did not involve a challenge to BCRA.
They contend that BRCA is unique among other threejudge judicial review provisions because it requires a
three-judge court to “adjudicate the entire ‘action’—
which includes . . . a pre-trial motion to dismiss for
lack of jurisdiction.” Pls.’ Reply at 13. BCRA’s use of
the word “action” is not unique, however. Like BCRA,
the statute at issue in Shapiro similarly requires the
convening of a three-judge court to adjudicate the entire
“action,” 28 U.S.C. § 2284(a), and yet the Supreme Court
had no difficulty concluding that “a district judge need
not unthinkingly initiate the procedures to convene a
three-judge court without first examining the allegations in the complaint” and determining whether it
“lacks jurisdiction [over] the complaint,” Shapiro, 136
S. Ct. at 452; see also Wertheimer v. FEC, 268 F.3d 1070,
1072 (D.C. Cir. 2001) (finding that “an individual district
court judge may consider threshold jurisdictional challenges prior to convening a three-judge panel” under
the Presidential Campaign Fund Act, which, like BCRA,

47a
requires three-judge courts to hear applicable “actions”).
The D.C. Circuit has specifically applied Shapiro’s reasoning in the context of BCRA, explaining that “a threejudge court is not required” to hear a constitutional
challenge to BCRA “where the district court itself lacks
jurisdiction [over] the complaint or the complaint is not
justiciable in the federal courts.” Indep. Inst. v. FEC,
816 F.3d 113, 116 (D.C. Cir. 2016) (quoting Shapiro, 136
S. Ct. at 455). 2 Consistent with this precedent, a host
of district courts have held that a single judge may dismiss a constitutional challenge to BCRA for lack of
standing. See, e.g., Republican Party of La. v. FEC,
146 F. Supp. 3d 1, 8 (D.D.C. 2015); Rufer v. FEC, 64
F. Supp. 3d 195, 202 (D.D.C. 2014); Schonberg v. FEC,
792 F. Supp. 2d 14, 17 (D.D.C. 2011).
To be sure, Shapiro was focused on a separate jurisdictional issue—whether a claim was too “constitutionally insubstantial” to implicate the court’s federal subject-matter jurisdiction—but there is no basis to distinguish between Article III jurisdiction (standing) and
federal subject-matter jurisdiction (constitutional substantiality) for purposes of convening a three-judge
court. As with Article III standing, the court’s power
to dismiss a constitutionally insubstantial question does
not hinge on any “interpretation of statutory text” of
BCRA or 28 U.S.C. § 2284, but on the familiar proposition that the “essential” jurisdictional prerequisites
must be met before a single-judge court will exercise its
jurisdiction to convene a three-judge panel.
See
Plaintiffs argue that Independent Institute’s statement is dicta.
See Pls.’ Reply at 14. Even if it is, the issue is still controlled by
Shapiro and Gonzalez; therefore, the court does not consider this
argument further.
2

48a
Shapiro, 136 S. Ct. at 455 (quoting Ex parte Poresky,
290 U.S. 30, 31(1933) (per curiam)); see also O’Hair v.
United States, 281 F. Supp. 815, 818 (D.D.C. 1968) (“The
first duty of the sole judge is to pass on the sufficiency
of the complaint specifically as to whether or not a justiciable controversy is presented over which he has adjudicatory powers, and if he determines that the Court
lacks jurisdiction, he must dismiss the suit.”). As discussed below, Plaintiffs freely concede that a single
judge may dismiss a constitutionally insubstantial challenge to BCRA for lack of jurisdiction, see Pls.’ Reply at
14; it follows that the same is true of a case where jurisdiction is lacking for want of standing.
At oral argument, Plaintiffs sought to draw a line between these two jurisdictional inquiries, urging that the
question of constitutional substantiality is within the
single-judge court’s jurisdiction because it goes to
whether a constitutional question is raised at all—a necessary prerequisite to trigger BCRA § 403’s judicial review requirement—whereas questions regarding a litigant’s standing fall under the broad umbrella of an “action” challenging BCRA, and therefore must go to a
three-judge court. That reading, however, is irreconcilable with Gonzalez, in which the Supreme Court held
that it did not have mandatory jurisdiction over a threejudge court’s dismissal of a claim for lack of standing
because the lower court’s dismissal was “not merely
short of the ultimate merits; it was also, like an absence
of statutory subject-matter jurisdiction, a ground upon
which a single judge could have declined to convene
a three-judge court.” 419 U.S. at 100. The Court
acknowledged that, under the statute at issue, a “single

49a
judge is literally forbidden to ‘dismiss the action, or enter a summary or final judgment’ in any case required
to be heard by three judges,” but it eschewed such a literalist reading, noting that “we have always recognized
a single judge’s power to dismiss a complaint for want of
. . . jurisdiction.” Id. at 96 n. 14 (quoting 28 U.S.C.
§ 2284(5)). Thus, Gonzalez confirms that a single
judge’s power to dismiss a case on jurisdictional grounds
does not turn on the type of jurisdictional question presented, even when, as here, the statute requires threejudge review of an entire “action.”
The single-judge court’s power to dispose of non-justiciable challenges to BCRA finds further support from
its important role as a gatekeeper. See Republican
Party of La., 146 F. Supp. 3d at 8 (explaining that “the
[single judge’s] role at this stage of the proceedings is to
determine how and by whom this case will be heard”).
It is the single-judge court’s responsibility to weed out
jurisdictionally lacking cases that would otherwise “triple[] the normal cost of a case for the district court,”
Turner Broad. Sys., Inc. v. FCC, 810 F. Supp. 1308, 1312
(D.D.C. 1992), and burden the Supreme Court’s docket
with mandatory review, see Gonzalez, 419 U.S. at 98 (explaining that three-judge judicial review statutes should
be construed narrowly consistent with the Court’s
“overriding policy, historically encouraged by Congress,
of minimizing the mandatory docket of [the Supreme
Court] in the interests of sound judicial administration”).
Plaintiffs’ unyielding interpretation of the word “action” would upend this court’s important gatekeeping
role. For instance, because any “action” challenging
BCRA’s constitutionality is reviewable “only by appeal

50a
directly to the Supreme Court,” see BCRA § 403(a)(3),
Plaintiffs’ reading would require that the Supreme
Court assume “mandatory, direct appellate jurisdiction
in this case” even if this court were to dismiss Plaintiffs’
Complaint for lack of standing, see Pls.’ Reply at 10.
That cannot be squared with the “well settled” rule that
the “refusal to request the convention of a three-judge
court, dissolution of a three-judge court, and dismissal
of a complaint by a single judge are orders reviewable
in the court of appeals,” not in the Supreme Court.
Gonzalez, 419 U.S. at 100; see also Turner, 810 F. Supp.
at 1312 (rejecting an identical construction of the word
“action” due to the “considerable burdens” it would
place “on the federal judicial system”).
In short, Plaintiffs seek to pile more weight on the
word “action” as it is used in BCRA § 403 than it can
bear. This court has authority to consider the question
of Plaintiffs’ standing, which it turns to now.
2. Plaintiffs’ Standing

A plaintiff in federal court bears the burden of showing that she meets the “irreducible constitutional minimum” of Article III standing: (1) injury in fact, (2) causation, and (3) redressability. Lujan v. Defs. of Wildlife, 504 U.S. 555, 560-61 (1992). To establish standing
at the motion to dismiss stage, the plaintiff “must state
a plausible claim that [she has] suffered an injury in fact
fairly traceable to the actions of the defendant that is
likely to be redressed by a favorable decision on the
merits.” Food & Water Watch, Inc. v. Vilsack, 808
F.3d 905, 913 (D.C. Cir. 2015) (quoting Humane Soc’y of
the U.S. v. Vilsack, 797 F.3d 4, 8 (D.C. Cir. 2015)); see
also Republican Party of La., 146 F. Supp. 3d at 9.

51a
Plaintiffs allege a variety of injuries, but the most
clear-cut is Senator Cruz’s $10,000 financial injury. To
recap, Senator Cruz loaned his campaign $10,000 more
than he could legally be repaid using post-election contributions. Compl. ¶ 28. Believing that he had a right
be repaid with such funds, he declined to pay himself
back with available pre-election funds and instead used
those funds to pay back other creditors. Id. ¶ 29. After the 20-day period had elapsed, Senator Cruz’s campaign repaid him the $250,000 maximum using post-election contributions, but it is legally barred from paying
him back the $10,000 balance. Id. ¶¶ 30-32.
As a consequence of all this, Senator Cruz is still
owed $10,000, id. ¶ 32, which is plainly a cognizable injury. Indeed, any financial loss—even if only a “dollar
or two”—is ordinarily a cognizable injury for standing
purposes. See Sprint Commc’ns Co., L.P. v. APCC
Servs., Inc., 554 U.S. 269, 289 (2008). That injury is
caused by the Loan Repayment Limit, because the Cruz
Committee’s inability to repay the $10,000 balance is due
to the law’s restrictions on the amount of post-election
contributions a campaign can use to repay a candidate’s
loans. And the injury would be redressed by a favorable
court decision, because, if a three-judge court were to
strike down the Loan Repayment Limit, the Cruz Committee would solicit additional post-election contributions to pay off Senator Cruz’s loans. See Compl. ¶¶ 3233. Senator Cruz has therefore met his burden of plausibly alleging each of the three elements of standing. 3

Because Senator Cruz has standing due to his financial injury,
the court does not address Plaintiffs’ other theories of standing.
See Ams. for Safe Access v. Drug Enf ’t Admin., 706 F.3d 438, 443
3

52a
The FEC nevertheless argues that Senator Cruz
lacks standing because, it says, the Senator’s injury is
self-inflicted. A self-inflicted harm is neither a “cognizable” Article III injury, nor “fairly traceable to the
defendant’s challenged conduct.” Nat’l Family Planning & Reprod. Health Ass’n, Inc. v. Gonzales, 468 F.3d
826, 831 (D.C. Cir. 2006). However, to be self-inflicted,
an injury must be “so completely due to the [plaintiff’s]
own fault as to break the causal chain.” Petro-Chem
Processing, Inc. v. EPA, 866 F.2d 433, 438 (D.C. Cir.
1989) (quoting Wright & Miller, 13A Fed. Prac. & Proc.
Juris. § 3531.5 (2d ed. 1984)). Plaintiffs’ role in Senator
Cruz’s injury does not rise to that level.
The FEC’s primary self-infliction argument—that
Senator Cruz caused his own injury by “transparently
tailor[ing]” the $260,000 loans to bring a challenge to the
Loan Repayment Limit, Defs.’ Mot. at 15, is easily disposed of. It has “long been settled . . . that an individual does not forfeit his standing for jurisdictional
purposes merely because he is a ‘test’ plaintiff.”
Gavett v. Alexander, 477 F. Supp. 1035, 1041 (D.D.C.
1979) (collecting cases). That is because, “if actual[]
adversary interests are involved, deliberate provocation
of litigation does not defeat the existence of a controversy.” Wright & Miller, 13 Fed. Prac. & Proc. Juris.
§ 3530 (3d ed. 2019). So long as there is “concrete adverseness” between the parties, see Granfield v. Catholic Univ. of Am., 530 F.2d 1035, 1045 (D.C. Cir. 1976), a
test case brought by a litigant who has been injured by
a law he seeks to challenge is no less justiciable than any
(D.C. Cir. 2013) (explaining that “to proceed to the merits” of a group
of petitioners’ claims, the court “need only find one party withstanding”).

53a
other, see Kuehl v. Sellner, 887 F.3d 845, 851 (8th Cir.
2018) (“[W]hen an individual searches for and finds a violation of the law, it is the violation itself—not the
search—that causes the plaintiff injury.”). 4 Because
the parties’ interests here are plainly adverse, the fact
that Senator Cruz may have made the two loans fully
expecting that the Loan Repayment Limit would inhibit
his ability to be fully repaid has no bearing on his standing to challenge the law.
The FEC’s second argument—that Plaintiffs could
have easily “taken legally available steps to avoid” Senator Cruz’s injury, Defs.’ Mot. at 16—is equally unavailing. Recall that the Loan Repayment Limit gives a
campaign committee two options for paying back a candidate’s personal loans after an election. The committee may either (1) repay up to “the entire amount of the
personal loans using” pre-election contributions, so long
as it makes the payment within 20 days of the election,
11 C.F.R. § 116.11(b)(1), (c)(1), or (2) “repay up to
$250,000 of the personal loans from” post-election contributions at any time, with any outstanding balance
above $250,000 converting to a contribution from the
candidate after the 20-day period expires, id.
§ 116.11(b)(2), (c)(2). The FEC argues that Senator
Cruz could have repaid himself with a minimum of
The only case cited by the FEC in support of its position, J. Roderick MacArthur Foundation v. FBI, 102 F.3d 600 (D.C. Cir. 1996),
is not to the contrary. That case did not discuss the plaintiffs’ subjective motivations in bringing the lawsuit, and the only alleged
harm—the risk to privacy associated with the public release of the
plaintiffs’ information—was exclusively the fault of the plaintiffs,
who voluntarily chose to make that information public. Id. at 606.
Unlike that case, Senator Cruz’s harm is indisputably caused by the
Loan Repayment Limit’s restrictions on how his loans can be repaid.
4

54a
$10,000 in pre-election contributions under Option 1,
which would have enabled him to make himself whole
with a maximum $250,000 payment using post-election
funds. By choosing not to make a modest loan payment
of $10,000 using pre-election funds, the FEC contends,
Plaintiffs voluntarily chose to subject Senator Cruz to
an injury under Option 2. Defs.’ Mot. at 16-17.
The flaw in the FEC’s argument is that it would require Senator Cruz to avoid an injury by subjecting himself to the very framework he alleges is unconstitutional.
For standing purposes, the court must accept as valid
the merits of Plaintiffs’ claim, see re U.S. Office of Pers.
Mgmt. Data Sec. Breach Litig., 928 F.3d 42, 54 (D.C.
Cir. 2019), meaning the court must assume that the
Loan Repayment Limit’s restriction on the amount of
post-election contributions a campaign committee can
use to repay a candidate’s pre-election loans unconstitutionally burdens free speech, see Compl. ¶¶ 3, 35-41.
The corollary of this is that Plaintiffs would have the
right to repay Senator Cruz’s loans in full using postelection contributions. Obligating Plaintiffs to avoid
the Senator’s injury by repaying at least a portion of the
loans using pre-election contributions would therefore
require Senator Cruz to forego exercising a right that
the court must assume he has, and subject him to the
very framework that ostensibly unconstitutionally burdens his free speech.
This principle animated the D.C. Circuit’s recent decision in Libertarian National Committee, Inc. v. FEC,
where the court rejected an argument that a political
committee had caused its own injury by refusing to subject itself to the statutory requirement it was challenging. 924 F.3d 533, 536 (D.C. Cir. 2019). In that case,

55a
a deceased member of the Libertarian Party had bequeathed more than $200,000 to the Libertarian National Committee (“LNC”)—well above the annual contribution limit of $33,400. Id. at 536. The LNC could
have accepted the bequest all at once by placing $33,400
in its general treasury and the rest in segregated accounts that limited the purposes for which the funds
could be spent, but the committee believed it had a First
Amendment right to receive the full bequest with no
strings attached. Id. at 538. Rather than accept the
money into spending-limited accounts, the LNC deposited the money into escrow, which limited its ability to
use the money for expressive purposes. See id. at 53839. The court rejected the FEC’s argument that the
LNC inflicted its own injury by failing to accept the entire bequest into segregated accounts, reasoning that
“the LNC’s injury stems not from its inability to accept
the entire bequest immediately (which it could have
done), but rather from the committee’s inability to accept immediately the entire bequest for general expressive purposes (which FECA prohibits).” Id. at 538
(cleaned up). Thus, as with this case, the LNC had no
obligation to avoid its injury by subjecting itself to the
very statutory requirement it claimed to be unconstitutional.
None of the cases the FEC cites supports the notion
that to avoid causing her own injury a plaintiff must
do the very thing she claims she has a right not to do.
For instance, in Gonzalez, the D.C. Circuit held that a
plaintiff lacked standing where its purported injury—
uncertainty as to how to comply with a purportedly conflicting statute and regulation—could have easily been

56a
resolved by asking the relevant agency to clarify its regulations. 468 F.3d at 831. The plaintiff was not challenging the requirement that it seek clarification, however. Thus, unlike Plaintiffs’ injury here, the Gonzalez
plaintiff ’s “easy means for alleviating the alleged [injury],” id., did not require it to comply with a legal requirement it was challenging. Likewise, in Huron v.
Berry, the court held that a family lacked standing to
challenge the federal government’s approval of certain
health insurance plans for federal employees after the
family switched to a plan that lacked medical coverage
the father needed. 12 F. Supp. 3d 46, 47 (D.D.C. 2013).
The family’s injury was self-inflicted, the court held, because they had chosen to enroll in a plan that lacked the
needed coverage notwithstanding the fact that there
were at least seven other federal plans that offered such
coverage. Id. at 52-53. The family’s decision not to
enroll in those other plans was based purely on their
“own economic self-interest,” id. at 53; the family did not
allege, as Plaintiffs allege here, that they had a constitutional right to enroll in the plan that lacked coverage,
or that enrolling in any of the other plans would violate
their rights.
The FEC makes much of the D.C. Circuit’s decision
in Stop This Insanity Inc. Employee Leadership Fund
v. FEC, 761 F.3d 10 (D.C. Cir. 2014), but, as the agency
conceded at oral argument, that case was not about
standing. Instead, the court held “on the merits” that
a corporation that sought to use a functionally obsolete
type of political action committee to solicit contributions
and make independent expenditures had no First Amendment right to be free of restrictions on that type of committee when the corporation itself could have engaged

57a
in the same activity free of any such restrictions. Id. at
12-14. The court could not have reached the merits if
the plaintiffs lacked standing, see Steel Co. v. Citizens
for a Better Env’t, 523 U.S. 83, 101-02 (1998), which suggests that, as here, a plaintiff does not lack an injury
simply because there are “less burdensome” and “more
robust option[s]” to accomplish her desired goals, see
Stop This Insanity, 761 F.3d at 14.
In sum, Senator Cruz has plausibly alleged a cognizable, redressable injury that is caused by the Loan Repayment Limit, not by Plaintiffs.
B.

The Constitutional Substantiality of Plaintiff ’s
BCRA Challenges

The FEC argues that the court should also deny
Plaintiffs’ application for a three-judge court “for the
separate and independent reason that plaintiffs have
failed to ‘present a substantial [constitutional] claim.’ ”
Defs.’ Mot. at 25 (quoting Republican Party of La., 146
F. Supp. 3d at 8). The court disagrees.
“[A] district judge need not unthinkingly initiate the
procedures to convene a three-judge court without first
examining the allegations in the complaint” and determining whether it has jurisdiction over the action.
Shapiro, 136 S. Ct. at 455. A challenge to BCRA fails
to implicate federal subject-matter jurisdiction, thereby
precluding federal judicial review, when the constitutional claim is “wholly insubstantial and frivolous.” Id.
(quoting Bell v. Hood, 327 U.S. 678, 682-683 (1946)).
“[T]he exception for insubstantial claims is narrow,”
however. Independence Institute, 816 F.3d at 116.
“It applies only when the case is ‘essentially fictitious,
wholly insubstantial, obviously frivolous, and obviously

58a
without merit.’” Id. (quoting Shapiro, 136 S. Ct. at
456). Plaintiffs’ constitutional challenges to BCRA are
not so lacking as to fail to clear this low bar.
Plaintiffs’ main constitutional concern with the Loan
Repayment Limit is straightforward: “[B]y bar[r]ing
the repayment of candidate loans greater than $250,000
from money raised after the election,” they argue, “the
[Loan Repayment Limit] necessarily increases the risk
that these loans will not be repaid in full, or perhaps at
all.” Pls.’ Reply at 15-16. This has the effect, Plaintiffs continue, of “deterring a candidate from making
loans in excess of $250,000,” thereby “directly burdening his First Amendment right ‘to speak without legislative limit on behalf of his own candidacy.’ ” Id. (quoting Buckley v. Valeo, 424 U.S. 1, 54 (1976)). The FEC
responds that Plaintiffs’ constitutional argument is
“wholly insubstantial” because the Loan Repayment
Limit “merely sets conditions on a candidate having his
or her loans repaid, which is not a constitutional right at
all,” and that even if the Limit did burden a candidate’s
free speech, it would be justified by the government’s
compelling interest in preventing corruption.
See
Defs.’ Mot. at 26-27.
The FEC has not shown that Plaintiffs’ argument is
“frivolous or . . . so settled by precedent as to be
beyond controversy.” Republican Party of La., 146
F. Supp. 3d at 13. Indeed, the FEC has not identified
any case law specifically holding that the type of indirect
burden on a candidate’s ability to freely loan to his campaign identified by Plaintiffs does not implicate the First
Amendment’s protections on political speech. Nor has
the FEC shown that any speech burdens that the Loan

59a
Repayment Limit places on candidates would unequivocally survive constitutional scrutiny. Thus, while the
argument “may or may not prevail on the merits,” Plaintiffs are entitled to make that case before a three-judge
court. Independence Institute, 816 F.3d at 117.
Plaintiffs also argue that the Loan Repayment Limit
unconstitutionally burdens the First Amendment rights
of committees and potential contributors, Pls.’ Reply at
20-23, and the FEC contends that these claims are similarly insubstantial, Defs.’ Mot. at 33-35. The court
need not address these arguments, however. Since
Plaintiffs have advanced “at least one argument . . .
that is not essentially fictitious, wholly insubstantial, obviously frivolous, and obviously without merit, the case
must proceed to a three-judge court.” Independence
Institute, 816 F.3d at 117 (internal quotation marks
omitted).
C.

Whether Plaintiffs’ Challenges to the FEC’s
Implementing Regulations May Be Heard by a
Three-Judge Court

Finally, the FEC argues that the court should decline
Plaintiffs’ request to convene a three-judge court with
respect to Plaintiffs’ claims challenging the FEC’s implementing regulations because, it insists, a three-judge
court would have no authority to rule on those claims.
That is incorrect; if appropriate, a three-judge court
could exercise supplemental jurisdiction over Plaintiffs’
challenges to the FEC’s regulations.
It has long been understood that in cases involving a
claim that must be heard by a three-judge court, that
court “has power to decide other claims in the case that,
standing alone, would require only a single judge.” See

60a
Wright & Miller, 17A Fed. Prac. & Proc. Juris. § 4235
(3d ed. 2019) (collecting cases); see also 28 U.S.C.
§ 1367(a) (granting district courts supplemental jurisdiction “over all other claims that are so related to
claims in the action within such original jurisdiction that
they form part of the same case or controversy”). In
Zemel v. Rusk, for instance, the Supreme Court held
that a three-judge court properly exercised jurisdiction
over a claim that the Secretary of State was acting in
excess of his statutory authority because the complaint
also included a substantial constitutional challenge to
the enabling statutes themselves. 381 U.S. 1, 5 (1965).
The Court rejected the government’s argument that the
three-judge court was improperly convened, holding
that the “joining in the complaint of a nonconstitutional
attack along with the constitutional one does not dispense with the necessity to convene [a three-judge]
court.” Id. at 6 (quoting Fla. Lime & Avocado Growers, Inc. v. Jacobsen, 362 U.S. 73, 80 (1960)). Likewise,
in Allee v. Medrano, the court reiterated that a threejudge court “could properly consider” a challenge that
raised claims not covered by the three-judge statute because it had “jurisdiction ancillary to that conferred by
the constitutional attack . . . which plainly required
a three-judge court.” 416 U.S. 802, 812 (1974).
The FEC argues that the Supreme Court’s decision
in McConnell v. FEC, 540 U.S. 93 (2003), compels a different result, see Defs.’ Reply in Supp. of its Mot. to Dismiss for Lack of Subject-Matter Jurisdiction, ECF No.
32 [hereinafter Defs.’ Reply], at 9-10, but the agency
misreads that case. The McConnell plaintiffs had
raised vagueness and overbreadth challenges to a new
provision of BCRA that directed the FEC to issue new

61a
regulations regarding non-candidates’ expenditures in
support of a candidate. 540 U.S. at 220. The FEC issued its regulations only after oral argument and briefing had completed, however, and the plaintiffs never
amended their complaints to challenge the regulations
themselves. See McConnell v. FEC, 251 F. Supp. 2d
176, 261-62 (D.D.C. 2003); see generally Docket Nos.
1:02-cv-00583-CKK-RJL;
1:02-cv-00751-CKK-RJL;
1:02-cv-00754-CKK; 1:02-cv-00754-CKK-RJL.
The
three-judge district court held that the challenge was
unripe because the plaintiffs had not directly challenged
the regulations, and the court did “not know to what extent the regulations have clarified the vagueness Plaintiffs contend would chill their rights.” McConnell, 251
F. Supp. at 262. 5 On appeal, “portions of plaintiffs’
challenge . . . focus[ed] on the regulations” themselves, and the Supreme Court rejected those arguments, explaining that “issues concerning the regulations are not appropriately raised in this facial challenge
to BCRA, but must be pursued in a separate proceeding.” McConnell, 540 U.S. at 223. Accordingly, the
Court agreed with the district court that, “to the extent
that the alleged constitutional infirmities are found in
the implementing regulations rather than the statute itself,” plaintiffs’ challenge to the provision was unripe.
Id.
The FEC seizes on the Supreme Court’s statement
that “issues concerning the regulations . . . must be
The district court also noted that BCRA’s jurisdictional grant
“does not extend to the consideration of FEC regulations,”
McConnell, 251 F. Supp. 2d at 258, but that statement was dicta because the court was not confronted with a challenge to an FEC regulation.
5

62a
pursued in a separate proceeding,” see Defs.’ Reply at
10 (alterations in FEC’s brief ), but it omits the Court’s
clarification that those issues were not appropriately
raised “in this facial challenge”—not all facial challenges to BCRA. McConnell, 540 U.S. at 223 (emphasis added). Any challenges to the regulations were not
appropriately raised in McConnell for the simple reason
that the plaintiffs had not challenged the regulations in
their complaints. The Supreme Court thus could not
have been overruling its decades-old rule that a threejudge court may assume jurisdiction over a supplemental claim, nor creating an exception to that rule under BCRA, when there was no such supplemental claim
to begin with. 6
The FEC responds that supplemental jurisdiction
under BCRA § 403 would be incompatible with 52 U.S.C.
§ 30110, another special judicial review provision in
FECA. See Defs.’ Reply at 10. Because that provision requires that constitutional challenges to nonBCRA provisions of FECA be certified directly to the
en banc D.C. Circuit, the FEC fears that allowing supplemental jurisdiction in a BCRA challenge would mean

The district court in Bluman v. FEC—cited by the FEC in support of its position—also read McConnell as holding that regulatory
challenges are “not appropriately raised in [a] facial challenge to
BCRA.” 766 F. Supp. 2d 1,4 (D.D.C. 2011) (alterations in original).
This court is not, of course, bound by that decision. As discussed,
McConnell’s holding that the back door regulatory challenges raised
by the plaintiffs on appeal were not appropriately raised in “this facial challenge to BCRA” was confined to the facts of that case; the
statement had nothing to do with whether a three-judge court has
supplemental jurisdiction to hear non-constitutional claims alongside a BCRA claim.
6

63a
that a constitutional challenge to FECA, brought alongside a constitutional challenge to BCRA, would have to
be heard simultaneously by the D.C. Circuit and a threejudge district court. The FEC misconstrues the nature of supplemental jurisdiction, however. Supplemental jurisdiction is not required when “expressly provided otherwise by Federal statute,” or when “there are
other compelling reasons for declining jurisdiction.”
28 U.S.C. § 1367(a), (c)(4). These exceptions would
surely excuse a three-judge court from exercising supplemental jurisdiction over claims for which the D.C.
Circuit had exclusive jurisdiction. 7
Finally, the FEC argues that supplemental jurisdiction is inappropriate because Plaintiffs’ regulatory
claims are insufficiently related to their constitutional
claims. See Defs.’ Reply at 10-11. That argument is
dubious, as the challenged regulations implement Section 304 of BCRA. In any event, the issue is one better
left for the three-judge panel to resolve in the discretionary exercise of its supplemental jurisdiction.
That said, this potential statutory conflict illuminates why Plaintiffs’ alternate theory—that any claim that is part of an “action” that
includes a constitutional challenge to BCRA challenge must be
heard by the three-judge court, see Pls.’ Reply at 29-32—is incorrect.
Such mandatory three-judge jurisdiction over all claims accompanying a BCRA constitutional claim—even claims utterly unrelated to
BCRA—would directly conflict with 52 U.S.C. § 30110, see Wagner
v. FEC, 717 F.3d 1007, 1011-12 (D.C. Cir. 2013) (explaining that section 30110 “deprive[s] both the district court and panels of the court
of appeals of authority to hear the merits of constitutional challenges
to the provisions of FECA”), and would impose untenable burdens
on the courts, see Turner, 810 F. Supp. at 1312 (rejecting a similar
argument due to its potential “burdens on both lower federal courts
and the Supreme Court”).
7

64a
IV.

CONCLUSION AND ORDER

For the foregoing reasons, the court grants Plaintiffs’ Application for a Three-Judge Court, ECF No. 2,
and denies the FEC’s Motion to Dismiss, ECF No. 25.
As required under 28 U.S.C. § 2284(b)(1), the Clerk of
Court shall, on behalf of this court, notify the Chief
Judge of the D.C. Circuit for assignment of this matter
to a three-judge district court.
Dated:

Dec. 24, 2019
/s/

AMIT P. MEHTA
AMIT P. MEHTA
United States District Court Judge

65a
APPENDIX F

1.

52 U.S.C. 30116( j) provides:

Limitations on contributions and expenditures
( j)

Limitation on repayment of personal loans

Any candidate who incurs personal loans made after
the effective date of the Bipartisan Campaign Reform
Act of 2002 in connection with the candidate’s campaign
for election shall not repay (directly or indirectly), to the
extent such loans exceed $250,000, such loans from any
contributions made to such candidate or any authorized
committee of such candidate after the date of such election.
2. Section 403(a) and (d), Bipartisan Campaign Reform Act, Pub. L. No. 107-155, 116 Stat. 113-114 provides:
SEC. 403. JUDICIAL REVIEW.

(a) SPECIAL RULES FOR ACTIONS BROUGHT ON
CONSTITUTIONAL GROUNDS.—If any action is brought
for declaratory or injunctive relief to challenge the constitutionality of any provision of this Act or any amendment made by this Act, the following rules shall apply:
(1) The action shall be filed in the United States
District Court for the District of Columbia and shall
be heard by a 3-judge court convened pursuant to
section 2284 of title 28, United States Code.
(2) A copy of the complaint shall be delivered
promptly to the Clerk of the House of Representatives and the Secretary of the Senate.

66a
(3) A final decision in the action shall be reviewable only by appeal directly to the Supreme Court of
the United States. Such appeal shall be taken by the
filing of a notice of appeal within 10 days, and the filing of a jurisdictional statement within 30 days, of the
entry of the final decision.
(4) It shall be the duty of the United States District Court for the District of Columbia and the Supreme Court of the United States to advance on the
docket and to expedite to the greatest possible extent
the disposition of the action and appeal.
* * * * *
(d) APPLICABILITY.—
(1) INITIAL CLAIMS.—With respect to any action
initially filed on or before December 31, 2006, the
provisions of subsection (a) shall apply with respect
to each action described in such section.
(2) SUBSEQUENT ACTIONS .—With respect to any
action initially filed after December 31, 2006, the provisions of subsection (a) shall not apply to any action
described in such section unless the person filing
such action elects such provisions to apply to the action.

67a
3.

11 C.F.R. 116.11 provides:

Restriction on an authorized committee’s repayment of
personal loans exceeding $250,000 made by the candidate
to the authorized committee.

(a) For purposes of this part, personal loans mean a
loan or loans, including advances, made by a candidate,
using personal funds, as defined in 11 CFR 100.33, to his
or her authorized committee where the proceeds of the
loan were used in connection with the candidate’s campaign for election. Personal loans also include loans
made to a candidate’s authorized committee that are endorsed or guaranteed by the candidate or that are secured by the candidate’s personal funds.
(b) For personal loans that, in the aggregate, exceed
$250,000 in connection with an election, the authorized
committee:
(1) May repay the entire amount of the personal
loans using contributions to the candidate or the candidate’s authorized committee provided that those contributions were made on the day of the election or before;
(2) May repay up to $250,000 of the personal loans
from contributions made to the candidate or the candidate’s authorized committee after the date of the election; and
(3) Must not repay, directly or indirectly, the aggregate amount of the personal loans that exceeds $250,000,
from contributions to the candidate or the candidate’s
authorized committee if those contributions were made
after the date of the election.

68a
(c) If the aggregate outstanding balance of the personal loans exceeds $250,000 after the election, the authorized political committee must comply with the following conditions:
(1) If the authorized committee uses the amount of
cash on hand as of the day after the election to repay all
or part of the personal loans, it must do so within 20 days
of the election.
(2) Within 20 days of the election date, the authorized committee must treat the portion of the aggregate
outstanding balance of the personal loans that exceeds
$250,000 minus the amount of cash on hand as of the day
after the election used to repay the loan as a contribution by the candidate.
(3) The candidate’s principal campaign committee
must report the transactions in paragraphs (c)(1) and
(c)(2) of this section in the first report scheduled to be
filed after the election pursuant to 11 CFR 104.5(a) or
(b).
(d) This section applies separately to each election.

